Table of Contents




                           Semiannual
                           Report to
                           Congress
Office of Audit




                           October 1, 2013 — March 31, 2014




                           Message from the
Office of Investigations




                           Inspector General

                           Summary of Performance
Appendices




                                                              Print
Table of Contents
                           A Message from the
                           Inspector General


                                                                         The Office of Inspector General (OIG) – with the support of the Governors, Congress,
                                                                         and U.S. Postal Service management – plays a key role in maintaining the integrity
                                                                         and accountability of America’s Postal Service, its revenue and assets, and its
                                                                         employees through our audit and investigative work.
Office of Audit




                                                                           OIG efforts have resulted in significant savings opportunities and improved
                                                                           efficiencies. During this 6-month report period ending March 31, 2014, we issued
                                                                           94 audit reports, management advisories, PARIS risk models, and Risk Analysis
                                                              Research Center and Office of Audit white papers. The Postal Service accepted 95 percent of
                                                              our significant recommendations. In addition, we completed 1,698 investigations that led to 323
                                                              arrests and nearly $122 million in fines, restitutions, and recoveries, of which $15 million went to
                                                              the Postal Service.

                                                              The Semiannual Report to Congress is a reflection of the OIG’s goals of transparency and
Office of Investigations




                                                              accountability. This reporting period we have transitioned to a new dynamic report format,
                                                              which we believe heightens transparency and accountability to our stakeholders. With illustrative
                                                              graphics and hyperlinks to the full reports for the period, stakeholders can drill down as deeply
                                                              as they want. The report also links to appendices, which provide detailed information on audit
                                                              reports and their associated recommendations, investigative cases pursued in the period, and
                                                              monetary impacts of our work.

                                                              I look forward to working with the Governors, Congress, and Postal Service management as we
                                                              address the challenges ahead.




                                                              David C. Williams
Appendices




                                                              Inspector General




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                  Print                   1
Table of Contents
                           Summary of
                           Performance                                              SUMMARY OF PERFORMANCE
                           October 1, 2013 — March 31, 2014                                                October 1, 2013 – March 31, 2014


                                                                        Funds put to better use: $98,878,630
                                                                                                                                             NVESTIGATIONS 1
                           Mission Statement                                 Questioned Costs: $33,075,002
                                                                              Revenue Impact: $53,992,397
                                                                                                                                           *I                *
                           The mission of the U.S. Postal Service
                           Office of Inspector General is to              Total = $185,946,029
                           conduct and supervise objective and
                                                                                                                                                    1,088
                                                                                                                                                                             1698




                                                                       AUDITS
                           independent audits, reviews, and


                                                                                                        17
Office of Audit




                           investigations relating to Postal Service                                                                                    323
                           programs and operations to:                                                                                                       225
                                                                                                                                                                     366
                           nn Prevent and detect fraud, theft, and                                       Total
                                                                                                        reports
                              misconduct;                                                                 with                                  Administrative Actions
                                                                                                       financial                               Investigations Completed
                           nn Promote economy, efficiency, and                                          impact
                                                                                                                                               Convictions/pretrial diversions2
                              effectiveness;
                                                                                                                                               Indictments/Informations
Office of Investigations




                                                                                   85
                           nn Promote program integrity; and                                                                                   Arrests

                           Keep the Governors, Congress, and                                                                                           Cost Avoidance $245,518,951
                           Postal Service management informed                    Reports issued
                                                                                                           Fines, Restitutions, and Recoveries $121,936,800

                                                                                   80                                                            15,257,345
                           of problems, deficiencies, and
                           corresponding corrective actions.
                                                                                                        Amount to the                        $
                                                                                                        Postal Service3
                                                                                    Significant
                                                                                recommendations        1 Statistics include joint investigations with other law enforcements agencies.
                                                                                                       2 Convictions reported in this period may be related to arrests in prior reporting periods.
                                                                                      issued           3 Amounts include case results of joint investigations with other OIG, federal, state, and local law
                                                                                                         enforcement entities.



                                                                                                  OIG HOTLINE CONTACTS

                                                                         33,851            Telephone Calls                                         300             Facsimile - Fax
Appendices




                                                                         22,590            Electronic Mail (E-mail)         @                      368             National Law Enforcement
                                                                                                                                                                   Communication Center
                                                                            817            Standard Mail
                                                                            597            Voice Mail Messages

                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                     Print                         2
Table of Contents
                           Table of Contents
                                                              Cover                                                                                                                                            Reports with Quantifiable Potential
                                                              A Message from the Inspector General...................................................................................1                         Monetary Benefits......................................................................................................15

                                                              Summary of Performance......................................................................................................2                    Report Listing.............................................................................................................16

                                                              Table of Contents..................................................................................................................3             PARIS Risk Models......................................................................................................17

                                                              Office of Audit.......................................................................................................................4      Appendix B.....................................................................................................................18

                                                                 Revenue and Performance................................................................................................4                      Findings of Questioned Costs......................................................................................18

                                                                     Opportunities Exist for Better Stamp Stock Management.................................................4                               Appendix C ....................................................................................................................19

                                                                     Formal Knowledge Management Strategy Needed..........................................................4                                    Recommendations That Funds Be Put to Better Use......................................................19

                                                                 Mission Operations...........................................................................................................5            Appendix D ....................................................................................................................20

                                                                     Better Address Management Could Improve Business Customer Retention.......................5                                               Other Impacts............................................................................................................20

                                                                     Challenges Abound in Preparing for Package Growth......................................................5                              Appendix E ....................................................................................................................21
                                                                       Readiness for Package Growth — Delivery Operations ..............................................5                                      Reports with Significant Recommendations Pending Corrective Actions .........................21
                                                                       Readiness for Package Growth — Customer Service Operations................................6                                         Appendix F ....................................................................................................................34
Office of Audit




                                                                       Readiness for Package Growth — Processing Capacity ............................................6                                        Significant Management Decisions in
                                                                 Support Operations...........................................................................................................6                Audit Resolution ........................................................................................................34
                                                                     Delayed Facilities Maintenance Could Increase Costs......................................................6                            Appendix G.....................................................................................................................34
                                                                 Financial and Systems Accountability.................................................................................7                        Status of Peer Review Recommendations.....................................................................34
                                                                     Correct Reporting Key to Accurate Retirement Liability Estimates.....................................7                                Appendix H.....................................................................................................................35
                                                                        Security Requirements Needed for IT Storage Environments.......................................7                                       Investigative Statistics.................................................................................................35
                                                                     Continuous Monitoring Would Reduce Improper Payments..............................................8                                   Appendix I......................................................................................................................36
                                                              Risk Analysis Research Center...............................................................................................8                    Summary of U.S. Postal Inspection Service Actions Under 39 USC § 3005 and 3007......36
                                                                     Providing Non-Bank Financial Services for the Underserved............................................8                                Appendix J.....................................................................................................................37
                                                                     What America Wants and Needs from the Postal Service.................................................9                                    All Closed Congressional/ PMG/BOG Inquires...............................................................37
Office of Investigations




                                                                     Enriching Postal Information: Applications for Tomorrow’s Technologies............................9                                       Inspector General Investigations..................................................................................37
                                                              Office of Investigations........................................................................................................10               Inspector General Audit Reports...................................................................................41
                                                                 Mail Theft ......................................................................................................................10           Risk Analysis Research Center Reports........................................................................41
                                                                 Financial Fraud...............................................................................................................10              General Council and Support Functions........................................................................41
                                                                 Healthcare Fraud............................................................................................................11                Referrals....................................................................................................................41
                                                                 Contract Fraud/Major Fraud Investigations Division...........................................................12                        Supplemental Information....................................................................................................42
                                                                 Whistleblower Reprisal Activity.........................................................................................12                    Freedom of Information Act.........................................................................................42
                                                              Appendices........................................................................................................................13      Acronym Guide...................................................................................................................43
                                                                 Appendix A.....................................................................................................................14      Who Do I Call — Report Fraud Waste and Abuse..................................................................44
                                                                     Reports Issued to Postal Service Management..............................................................14                        Contact Information.............................................................................................................45
Appendices




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                                                                               Print                                                                             3
Table of Contents
                           Office of Audit
                           Significant Audit Work
                                                                                    The Office of Audit (OA) conducts and supervises objective and independent audits and reviews of Postal Service programs and operations. It also assesses
                           For the period October 1, 2013, through March 31, 2014
                                                                                    compliance with laws and regulations, and evaluates internal controls. OA keeps Congress, the Postal Service Board of Governors, and management informed of
                                                                                    problems, deficiencies, and corresponding corrective actions. Generally, audit resources are aligned with those of the Postal Service vice presidents and major
                                                                                    functional areas, allowing the OA to focus efforts where there is the greatest potential risk to Postal Service management and operations.
                           Management Response
                           to Audit Work                                            Revenue and Performance
                           The Office of Audit (OA) adheres to
                                                                                                            Cover


                           professional audit standards and                                                                                                                     Opportunities Exist for Better Stamp Stock Management




                                                                                     Highlights
                           generally presents its audit work to                                                                                                                 Stamp Stock Ordering and Fulfillment
Office of Audit




                                                                                                                                                                                Every day the Postal Service processes about 14,500 postage stamp orders from retail units, collectors, and business



                                                                                     Table of Contents
                           management for comments prior to
                                                                                                                                                                                and residential customers. We found the Postal Service needs to significantly improve internal stamp ordering and
                           issuing a final report. Unless otherwise                                       Stamp Stock
                                                                                                          Ordering and
                                                                                                                                                                                fulfillment processes to effectively manage stamp stock. Specifically, stamp stock shortages and delays occurred with
                                                                                                          Fulfillment
                           noted in the selected audit work                          Findings
                                                                                                                                                                                the rollout of the new Solution for Enterprise Asset Management system because it was deployed during the 2012
                                                                                                                                                                                holiday season, prior to a rate change, and when 4,000 retiring postmasters were being replaced. Also, the system
                           discussed in this report, management
                                                                                     Recommendations




                                                                                                          Audit Report
                                                                                                                                                                                was not adequately tested prior to deployment to account for the large number of requests, and management did not
                           has agreed or partially agreed with
                                                                                                          Report Number
                                                                                                          MS-AR-14-001-DR

                                                                                                          November 8, 2013
                                                                                                                                                                                communicate changes to personnel responsible for fulfilling stamp stock. We identified $120 million at risk because the
                           our recommendations and is taking or                                                                                                                 recording of stock transactions was delayed. 
                                                                                     Appendices




                                                                                                                     Click on the report cover to read the full version
                           has already taken corrective action to                                                                                               Print




                                                                                                                                                                                We recommended management improve scanning compatibility and conduct proper testing, develop a policy for timely
                           address the issues raised.                                                                                                                           posting of transaction data, send status alerts to requesters, and communicate process changes with stamp distribution
Office of Investigations




                                                                                                                                                                                centers and retail units.


                                                                                                            Cover
                                                                                                                                                                                Formal Knowledge Management Strategy Needed
                                                                                      Highlights




                                                                                                                                                                                Postal Service Knowledge Management Process
                                                                                                                                                                                The Postal Service is getting leaner. But as it trims its workforce it is also losing some of its most valuable resources:
                                                                                      Table of Contents




                                                                                                          Postal Service
                                                                                                                                                                                long-term employees with extensive knowledge vital to running a vast organization. We found the Postal Service has
                                                                                                          Knowledge
                                                                                                          Management
                                                                                                                                                                                informal knowledge management elements in some of its programs, but we recommended it develop an organized
                                                                                                          Process
                                                                                      Findings




                                                                                                                                                                                strategy to preserve and disseminate explicit and tacit knowledge. Knowledge management is an intentional and holistic
                                                                                                                                                                                process of capturing knowledge within an organization. We looked at how eight public and private organizations, including
                                                                                      Recommendations




                                                                                                          Audit Report
                                                                                                          Report Number
                                                                                                                                                                                the General Services Administration and Walmart, manage knowledge, and we identified some best practices the
                                                                                                          DP-AR-14-002-DR
                                                                                                          March 7, 2014
                                                                                                                                                                                Postal Service should consider. These include: conducting exit interviews aimed at gleaning key information; designating
                                                                                                                                                                                a knowledge management officer; developing knowledge maps that track the organization’s pockets of expertise;
                                                                                      Appendices




                                                                                                                     Click on the report cover to read the full version
                                                                                                                                                                        Print
                                                                                                                                                                                conducting mentor-based training; and sharing knowledge through Communities of Practice as well as blogs and
                                                                                                                                                                                other social media tools. The Postal Service disagreed with our findings and recommendations, stating that a separate
Appendices




                                                                                                                                                                                knowledge management program would not be cost-effective. Management also described their knowledge management
                                                                                                                                                                                strategy as a continuous improvement program incorporating best practices, internal knowledge sharing, and leadership
                                                                                                                                                                                and development programs.




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                                                                      Print                                                    4
                             Office of Audit                                         Mission Operations
Table of Contents
                                                                     Mission Operations
                                                                                           Cover
                                                                                                                                                           Better Address Management Could Improve Business Customer Retention




                                                                     Highlights
                                                                                                                                                           Address Management System Data
                                                                                                                                                           The Postal Service has reduced its emphasis on address accuracy, cutting the number of Address Management System




                                                                     Table of Contents
                                                                                                                                                           (AMS) specialists by nearly 40 percent and then reclassifying the specialist position. Carriers also help maintain address
                                                                                         Address
                                                                                                                                                           quality by observing address changes on their routes and noting them in their edit books. Our audit found carriers did not




                                                                     Findings
                                                                                         Management
                                                                                         System Data                                                       consistently record address changes in their edit books during street delivery, and supervisors did not regularly review
                                                                                                                                                           carriers’ work. As a result, address corrections worth about $14 million were not made in the AMS in FYs 2012 and




                                                                     Recommendations
                                                                                         Audit Report
                                                                                         Report Number
                                                                                                                                                           2013. Address errors increased from more than 267,000 in FY 2011 to almost 440,000 in FY 2013. Incorrect addresses
                                                                                         DR-AR-14-003-DR

                                                                                         February 28, 2014
                                                                                                                                                           are costly for business mailers because they create mailings for these invalid addresses and then must process the
                                                                                                                                                           associated returned mail. Address errors also erode mailers’ confidence in the effectiveness of mail. Further, correct




                                                                     Appendices
                                                                                                    Click on the report cover to read the full version
                                                                                                                                               Print
                                                                                                                                                           address data could reduce the $1.3 billion the Postal Service spent last year processing undeliverable-as-addressed mail.
Office of Audit




                                                                                                                                                           We recommended the Postal Service set specific deadlines for carriers to update edit books and submit them to
                                                                                                                                                           supervisors. We also recommended deadlines be set for submission of error corrections to the AMS and that carriers
                                                                                                                                                           and supervisors receive formal AMS training. These steps could save $16 million in FYs 2014 and 2015 and strengthen
                                                                                                                                                           business mailers’ confidence in the Postal Service. Management disagreed with one of our assertions but agreed in
                                                                                                                                                           principle with our recommendations and the monetary impact.


                                                                                           Cover
                                                                                                                                                           Challenges Abound in Preparing for Package Growth
                                                                     Highlights




                                       Readiness for Package                                                                                               Is the Postal Service prepared to meet the challenges of increased package volume brought on by the explosion in
                                       Growth Podcast
Office of Investigations




                                                                                                                                                           e-commerce? That’s the question behind our series of reports on the Postal Service’s processing, delivery, and
                                                                     Table of Contents




                                 Listen to a recap of the findings                       Readiness
                                                                                                                                                           customer service operations. U.S. online retail sales are expected to grow to nearly $279 billion by 2015. In its
                                                                                         for Package
                                                                                                                                                           2012 Five-Year Business Plan, the Postal Service projected its volume of 3.5 billion packages in FY 2012 will
                                 on all three Readiness for                              Growth-
                                                                     Findings




                                                                                         Delivery
                                                                                         Operations                                                        grow by 5 to 6 percent per year through 2017. Customers expect free and fast shipping and increased tracking and
                                 Package Growth Delivery reports.                                                                                          visibility capabilities. The booming package sector offers the Postal Service an opportunity to counter the decline in
                                                                     Recommendations




                                                                                         Management

                                                   Click here
                                                                                         Advisory Report
                                                                                         Report Number
                                                                                                                                                           First-Class Mail volume and leveling off of Standard Mail volume. Its Delivering Results, Innovation, Value, and Efficiency
                                                                                                                                                           initiative aims to establish a package processing and delivery network that supports projected package growth. We
                                                                                         DR-MA-14-001-DR
                                                                                         December 11, 2013


                                Written script of podcast
                                                                                                                                                           discovered the Postal Service has successfully managed many aspects of increased package activity but should make
                                                                     Appendices




                                                                                                    Click on the report cover to read the full version
                                                                                                                                               Print       changes in delivery, customer service, and processing operations to fully meet customers’ needs and stay competitive in
                                                                                                                                                           this growing market.

                                                                                                                                                           Readiness for Package Growth — Delivery Operations
                                                                                                                                                           The Postal Service’s Delivery Operations organization has successfully managed package growth and the fluctuations
                                                                                                                                                           in package volume by keeping workhours in line with volume. However, opportunities still exist to improve readiness by
                                                                                                                                                           implementing dynamic routing to make delivery more efficient and modifying package compartments on cluster box
                                                                                                                                                           units to accommodate additional parcels. Retaining more city carrier assistants, establishing a shelving system in postal
Appendices




                                                                                                                                                           vehicles, and using carrier pick-up data to manage operations will further bolster package readiness.




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                                                  Print                                                       5
                             Office of Audit                                      Mission Operations and Support Operations
                                                                                       Cover
Table of Contents
                                                                                                                                                      Readiness for Package Growth — Customer Service Operations	




                                                                Highlights
                                                                                                                                                      Customer Service Operations has successfully managed package volume growth, employee workhours, and scan rates at
                                                                                                                                                      delivery units. Clerks consistently scanned more than 98 percent of trackable mailpieces before carriers delivered them.




                                                                Table of Contents
                                                                                                                                                      However, acceptance scans of barcoded packages from customer drop points, such as street collection boxes
                                                                                    Readiness for
                                                                                    Package Growth –                                                  and Post Office lobby boxes, were below the 98 percent target. Also, 58 percent of the customers we observed during
                                                                                    Customer Service
                                                                                    Operations
                                                                                                                                                      the holiday period waited in line at retail units for more than 5 minutes to mail packages or flat items. We recommended




                                                                Findings
                                                                                                                                                      the Postal Service increase barcode scanning and reduce customer wait times. We also urged it to enable the feature in
                                                                                    Management




                                                                Recommendations
                                                                                    Advisory Report
                                                                                    Report Number
                                                                                                                                                      its Passive Adaptive Scanning System that identifies packages with potential short paid or unpaid postage and increase
                                                                                                                                                      the number of barcoded packages to provide the end-to-end tracking customers expect. Management disagreed with
                                                                                    DR-MA-14-003-DR
                                                                                    March 31, 2014




                                                                                                                                                      the operational and judgmental assumptions we made for improving Postal Service competitiveness, but they agreed




                                                                Appendices
                                                                                               Click on the report cover to read the full version
                                                                                                                                                      with the recommendations.
                                                                                                                                          Print




                                                                                      Cover
                                                                                                                                                      Readiness for Package Growth — Processing Capacity
Office of Audit




                                                              Highlights
                                                                                                                                                      The Postal Service has more than enough machine capacity to process all non-peak period package volume. It can
                                                                                                                                                      process an average of about 29 million packages daily, which is more than sufficient to process the 24 million packages


                                                              Table of Contents
                                                                                                                                                      it receives. During the December peak holiday mailing season, the Postal Service augments its machine capacity with
                                                                                    Readiness
                                                                                    for Package                                                       manual processing. It does this to accommodate the increased holiday volume without adding excess machine capacity
                                                                                    Growth –
                                                                                    Processing                                                        and its associated costs for the other 11 months of the year. But as package volume grows, the Postal Service should
                                                              Findings




                                                                                    Capacity
                                                                                                                                                      improve machine throughput by properly staffing machines and adjusting the mail arrival schedule to ensure mail is
                                                              Recommendations




                                                                                    Audit Report                                                      available for processing when the machines’ operating window begins.
                                                                                    Report Number
                                                                                    NO-AR-14-002-DR

                                                                                    January 21, 2014
                                                              Appendices




                                                                                               Click on the report cover to read the full version
                                                                                                                                          Print
Office of Investigations




                                                              Support Operations
                                                                                      Cover


                                                                                                                                                      Delayed Facilities Maintenance Could Increase Costs
                                                              Highlights




                                                                                                                                                      Spending Trends for Maintaining Postal Service Facilities
                                                                                                                                                      A $382 million budget decrease for facility repairs from FY 2009 to FY 2012 has affected the Postal Service’s ability
                                                              Table of Contents




                                                                                    Spending
                                                                                                                                                      to address all repairs, alterations, and capital improvements at the more than 32,000 facilities it manages. Management
                                                                                    Trends for
                                                                                    Maintaining                                                       initiated a capital spending freeze in 2009 to conserve cash and it has continued to present. In FY 2012, the
                                                                                    Postal Service
                                                              Findings




                                                                                    Facilities                                                        Postal Service spent $266 million (29 percent) below the industry average on facility repairs for the 280 million square
                                                                                                                                                      feet of space it manages — spending $2.69 per square foot versus an industry average of $3.81 per square foot. Due
                                                              Recommendations




                                                                                    Audit Report
                                                                                    Report Number
                                                                                    SM-AR-14-002-DR
                                                                                                                                                      to these budget constraints, the Postal Service Facilities group did not complete 19,033 repairs (18 percent) estimated to
                                                                                    November 27, 2013
                                                                                                                                                      cost $271 million during FYs 2011 and 2012. Fifty percent of these incomplete repairs represented safety and security
                                                                                                                                                      issues, or likely will require future major repairs. Future costs for these unfunded repairs could reach $1.4 billion, while
                                                              Appendices




                                                                                               Click on the report cover to read the full version
                                                                                                                                          Print       16 percent of them represented potential Occupational Safety and Health Administration violations and potential fines
Appendices




                                                                                                                                                      estimated at $2.9 million.

                                                                                                                                                      We found the Facilities organization could improve the way it prioritizes repairs. Its failure to document procedures led to
                                                                                                                                                      critical repairs being identified as low priority and repair priority lists becoming outdated. Also, the Postal Service did not
                                                                                                                                                      develop a strategy to complete all repairs and did not focus funds to address critical repairs. By not accurately prioritizing
                                                                                                                                                      and completing repairs, the Postal Service increased its safety and financial risks.

                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                                                Print                                                        6
                             Office of Audit                                   Financial and Systems Accountability
Table of Contents
                                                              Financial and Systems Accountability
                                                                                     Cover
                                                                                                                                                     Correct Reporting Key to Accurate Retirement Liability Estimates




                                                               Highlights
                                                                                                                                                     Fiscal Year 2013 Postal Service Financial Statements Audit – Eagan Accounting Services
                                                                                                                                                     The Federal Employees Retirement System (FERS) is a pension program administered by the Office of Personnel




                                                               Table of Contents
                                                                                   Fiscal Year
                                                                                                                                                     Management (OPM) and offered to eligible Postal Service employees, with a contribution rate based on a percentage of
                                                                                   2013 Postal
                                                                                   Service                                                           an employee’s salary. Effective January 1, 2013, OPM classified newly hired employees as Federal Employees Retirement
                                                                                   Financial




                                                               Findings
                                                                                   Statements                                                        System-Revised Annuity Employees (FERS-RAE) and increased the FERS-RAE employee contribution rates for regular
                                                                                   Audit – Eagan
                                                                                   Accounting                                                        and law enforcement employees, while the Postal Service’s contribution rate decreased. Our annual audit of the Postal




                                                               Recommendations
                                                                                   Services

                                                                                   Audit Report
                                                                                                                                                     Service Eagan Accounting Services found that because it lacked OPM guidance, the Postal Service misreported more
                                                                                   Report Number
                                                                                   FT-AR-14-006-DR                                                   than $455,000 in retirement contributions for newly hired law enforcement personnel by combining FERS-RAE and
                                                                                   February 24, 2014


                                                                                                                                                     FERS regular contributions. This would have led to misreporting of about $7.5 million annually had the Postal Service




                                                               Appendices
                                                                                              Click on the report cover to read the full version
                                                                                                                                         Print       continued to combine FERS-RAE law enforcement and FERS regular contributions. Accurate retirement contribution
Office of Audit




                                                                                                                                                     reporting is key to accurate retirement liability estimates. Management corrected the reporting error after meeting with
                                                                                                                                                     the OIG in September 2013, and retroactively adjusted all FERS-RAE law enforcement contributions so we made no
                                                                                                                                                     recommendations. Management disagreed with the assessment and valuation of the finding of a data integrity impact
                                                                                                                                                     of $7.5 million annually.

                                                                                                                                                     The Eagan Accounting Service audit is one of 10 annual audits the OIG conducts regarding the financial statement and
                                                                                                                                                     internal controls over financial reporting.


                                                                                     Cover
                                                                                                                                                     Security Requirements Needed for IT Storage Environments
                                                               Highlights
Office of Investigations




                                                                                                                                                     Information Storage Security
                                                                                                                                                     Our audit assessed the security of the non-mainframe information storage environment managed by the Postal Service’s
                                                               Table of Contents




                                                                                   Information
                                                                                                                                                     Information Technology, Computer Operations, Data Management Services group. We found the audited storage
                                                                                   Storage
                                                                                   Security                                                          environment is vulnerable to compromises, which could lead to data loss, system outages, or data corruption.
                                                               Findings




                                                                                                                                                     The Postal Service spends about $30 million annually on capitalized storage components that support 230 systems
                                                               Recommendations




                                                                                   Audit Report
                                                                                   Report Number
                                                                                   IT-AR-14-004-DR
                                                                                                                                                     containing various categories of data, such as personal employee information, which have different protection
                                                                                   March 27, 2014
                                                                                                                                                     requirements based on their level of sensitivity. A system outage in 2010 revealed the storage environment was not
                                                                                                                                                     subject to security reviews or audits, including no periodic administrator access reviews. Also, the Corporate Information
                                                               Appendices




                                                                                              Click on the report cover to read the full version
                                                                                                                                         Print       Security Office (CISO) did not provide adequate guidance for securing storage-based information resources, such as
                                                                                                                                                     systems, hardware, software, data, applications,
                                                                                                                                                     and telecommunications networks.

                                                                                                                                                     To improve security of information storage, we recommended management establish operating procedures and security
                                                                                                                                                     requirements, better oversee storage environments, set a schedule for complying with these new standards, and ensure
                                                                                                                                                     personnel maintain their storage skills. We also recommended that CISO establish security requirements for storage
Appendices




                                                                                                                                                     environments.




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                                            Print                                                      7
                             Office of Audit/                                      Financial and Systems Accountability
Table of Contents            Risk Analysis Research Center
                                                                                       Cover
                                                                                                                                                                                              Continuous Monitoring Would Reduce Improper Payments




                                                                Highlights
                                                                                                                                                                                              Processes and Procedures over Improper Payments
                                                                                                                                                                                              The Postal Service should use data mining and a continuous monitoring program to better monitor improper payments for




                                                                Table of Contents
                                                                                                                                                                                              goods or services and to collect court-ordered payments owed to it. Our audit identified about $203 million in improper
                                                                                    Processes and
                                                                                    Procedures
                                                                                    Over Improper
                                                                                                                                                                                              payments made by the Postal Service in fiscal years (FYs) 2012 and 2011 and found management lacks a process to




                                                                Findings
                                                                                    Payments
                                                                                                                                                                                              fully monitor and pursue restitution and recovery of nearly $9 million settled by federal courts. Improper payments are
                                                                                                                                                                                              defined by the Improper Payments Information Act of 2002 as any payment that should not have been made or that was




                                                                Recommendations
                                                                                    Audit Report
                                                                                    Report Number
                                                                                                                                                                                              made in an incorrect amount under statutory, contractual, administrative, or other legally applicable requirements. They
                                                                                    FT-AR-14-001-DR
                                                                                    October 22, 2013
                                                                                                                                                                                              can occur due to inadequate recordkeeping, inaccurate program eligibility determinations, inadvertent processing errors,
                                                                                                                                                                                              untimely and unreliable information to confirm payment accuracy, or fraud. Improper payments do not always represent




                                                                Appendices
                                                                                               Click on the report cover to read the full version                   Print
                                                                                                                                                                                              an actual loss.
Office of Audit




                                                              Risk Analysis Research Center
                                                              For the reporting period of October 1, 2013 through March 31, 2014

                                                              The Risk Analysis Research Center conducts in-depth research and analysis on postal issues to identify opportunities for revenue growth and increased
                                                              operational efficiencies.

                                                                                      Cover
                                                                                                                                                                                              Providing Non-Bank Financial Services for the Underserved
                                                               Executive Summary




                                                                                                                                                                                              More than a quarter of American households exist at least partially outside the financial mainstream — lacking access
                                                                                                                                                                                              to basic banking or relying on costly alternatives like check-cashing or payday loans. These households spent $89 billion
Office of Investigations




                                                                                                                                                                                              in 2012 just on fees and interest, representing an average of almost 10 percent of their income. A January white paper,
                                                               Table of Contents




                                                                                    Providing
                                                                                    Non-Bank
                                                                                    Financial
                                                                                                                                                                                              Providing Non-Bank Financial Services for the Underserved, explored how the Postal Service could offer a suite of non-
                                                                                    Services
                                                                                    for the
                                                                                                                                      Bill
                                                                                                                                    payments             Money
                                                                                                                                                         orders
                                                                                                                                                                                              bank financial services that could help the underserved gain more financial stability and better participate in the digital
                                                                                    Underserved                                                                      Small
                                                                                                                          Prepaid
                                                                                                                                                                                              economy. Non-bank financial services could also provide new revenue for the Postal Service.
                                                               Observations




                                                                                                                           cards                                     loans

                                                                                    RARC Report                                                                             Mobile
                                                                                                               E-commerce
                                                                                    Report Number
                                                                                                                                                                         transactions
                                                                                    RARC-WP-14-007-DR

                                                                                                                                                                                              The Postal Service already provides non-bank financial services like money orders and international money transfers.
                                                                                                                                      United States Postal Service




                                                                                                                Direct
                                                                                    January 27, 2014
                                                                                                                                                                              International
                                                                                                               deposits                                                          money
                                                                                                                                                                                transfers
                                                               Appendices




                                                                                                                                                                                              Through an expanded set of services — such as reloadable prepaid cards, expanded money transfers, and bill payment
                                                                                               Click on the report cover to read the full version                   Print
                                                                                                                                                                                              — the Postal Service could help underserved Americans save billions of dollars every year in interest and fees, shore up
                                                                                                                                                                                              the strength of its existing retail network, and possibly partner with banks and other organizations to help them connect
                                                                                                                                                                                              with millions of new customers. While banks are closing branches all over the country, mostly in low-income areas such
                                                                                                                                                                                              as rural communities and inner cities, the Postal Service’s physical network remains ubiquitous. Many international
                                                                                                                                                                                              posts are already offering financial services that both improve their profitability and aid the cause of supporting financial
                                                                                                                                                                                              inclusion in their countries.
Appendices




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                                                                                       Print                                                       8
                             Office of Audit                                      Risk Analysis Research Center
Table of Contents
                                                                                    Cover
                                                                                                                                                                           What America Wants and Needs from the Postal Service




                                                              Executive Summary
                                                                                                                                                                           The OIG conducted a series of focus groups across the nation to determine what kinds of services Americans expect
                                                                                                                                                                           from the Postal Service. This research served as a follow-up to our earlier white paper that summarized the results of
                                                                                                                                                                           a national web-based survey aimed at better understanding how Americans view the Postal Service and its role in the




                                                              Table of Contents
                                                                                  What America
                                                                                  Wants and
                                                                                  Needs from the
                                                                                                                                                                           future. The results from the focus groups, which included rural, urban, and suburban customers, were detailed in a paper,
                                                                                  Postal Service
                                                                                                                                                                           What America Wants and Needs from the Postal Service. The goal of the research was to gain a better perspective on
                                                                                                                                                                           what Americans, either with or without Internet access, absolutely need, and what compromises they were willing to




                                                              Observations
                                                                                  RARC Report
                                                                                  Report Number
                                                                                                                                                                           accept to ensure a viable Postal Service. Interestingly, and perhaps not surprisingly, geography was a significant factor.
                                                                                  RARC-WP-14-009-DR

                                                                                  February 18, 2014                                                                        For instance, rural participants viewed post offices as community centers, while urban participants saw them as a
                                                                                                                                                                           convenience, and those perceptions underpinned expectations of what kinds of services should be available.




                                                              Conclusion
                                                                                             Click on the report cover to read the full version                  Print
Office of Audit




                                                                                    Cover
                                                                                                                                                                           Enriching Postal Information: Applications for Tomorrow’s Technologies


                                                              Executive Summary
                                                                                                                                                                           Information about physical mail, particularly customer-centric information, is now as important as the mailpiece itself.
                                                                                                                                                                           To understand how the Postal Service might better adapt to increasing market demands for information, the OIG
                                                                                                                                                                           considered a variety of information-gathering technologies that might benefit the postal industry. Our paper,
                                                              Table of Contents




                                                                                  Enriching Postal
                                                                                  Information:
                                                                                  Applications                                                                             Enriching Postal Information: Applications for Tomorrow’s Technologies, lists more than 50 potential applications that are
                                                                                  for Tomorrow’s
                                                                                  Technologies                                                                             relevant to the postal industry, including those that could enhance sales, transportation, delivery, and customer service,
                                                                                                                           Trackin


                                                                                                                                                                           as well as support public safety and internal postal security. The paper highlights mobile post offices as well as citizen-
                                                              Observations




                                                                                                                           1234 g Shipmen
                                                                                                                                5678       t:
                                                                                                                                     9101
                                                                                                                                          1213
                                                                                                                                                            1415
                                                                                                                                3:56p
                                                                                                                               01-08-    Del Sc
                                                                                                                                      14        hd     fr Hoba


                                                                                                                                                                           government services and increasing the public’s ease-of-access to both.
                                                                                                                                        IN Po
                                                                                  RARC Report                                 2:47a
                                                                                                                                                  st Off
                                                                                                                                                         ice
                                                                                                                                                              rt

                                                                                                                             01-09-    Arrive
                                                                                                                                    14        d   @ SF
                                                                                                                                      CTR                CA
                                                                                  Report Number
                                                                                                                            9:12a
                                                                                  RARC-WP-14-006-DR                        01-09-    Arvd
                                                                                                                                          @ LA
                                                                                                                                  14
                                                                                                                                     Off
                                                                                                                                       ice     CA      Post
                                                                                  January 13, 2014                       11:16a
                                                                                                                         01-10-
                                                                                                                                14 Packa ge De
Office of Investigations




                                                                                                                                                  livered
                                                              Appendices




                                                                                                                                                                           Postal management also needs more information to prevent service failures, align staffing and equipment to workload,
                                                                                             Click on the report cover to read the full version                  Print
                                                                                                                                                                           increase workplace safety, and decrease mail theft. New public services could also be developed. For example, enriched
                                                                                                                                                                           postal information could support applications for identity verification and real-time mapping and traffic monitoring. With
                                                                                                                                                                           the proper strategic approach, the Postal Service could reposition itself as an “information business.”
Appendices




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                                                                   Print                                                      9
Table of Contents
                           Office of
                           Investigations
                                                                                                     The Postal Service is consistently ranked by the Ponemon Institute as America’s “most trusted federal agency.” Among the reasons for this ranking is the integrity
                                                                                                     of its employees. However, a few postal employees and contractors betray that trust and abuse the public’s confidence in the Postal Service. When that happens,
                                                                                                     the OIG’s Office of Investigations (OI) gets involved.

                                                                                                     To protect the mail and to ensure the integrity of postal processes, finances, and personnel, the Postal Service relies on the investigative efforts of OI special agents,
                                                                                                     who are stationed in offices nationwide. Their charge is to investigate internal crimes and frauds committed by postal employees and contractors against the
                                                Office of
                                                                                                     Postal Service and employee misconduct. In this section, we highlight work conducted by the OI during this reporting period that contributed to safeguarding the
                                                Investigations Video
                                                                                                     Postal Service’s revenue and assets and helped deter postal crimes, ultimately helping to maintain a stable and sound Postal Service.
                                    Overview of the some Office of
                                                                                                     Mail Theft
Office of Audit




                                    Investigations accomplishments
                                                                                                     The majority of Postal Service employees work conscientiously to move the nation’s mail to its proper destination. A few employees abuse the public’s trust. Special agents investigate
                                                            Click here
                                                                                                     allegations of postal employees delaying, destroying, or stealing mail. Investigations of suspected employees are referred to prosecutors or to management for administrative action.

                                                                                                      An OIG investigation determined that a motor vehicle service driver stole several mail parcels containing high-value jewelry. Agents executed a search warrant at the driver’s residence
                                                                                                       and found two stolen watches and $8,000 in cash. The investigation also revealed the driver deposited more than $42,000 in a personal bank account. During an interview with
                                                                                                       agents, the driver admitted to pawning the stolen jewelry for cash to support a gambling addiction. In March 2012, the driver resigned from the Postal Service. In February 2014, the
                                                                                                       former employee was sentenced in federal court to 30 months in prison, 3 years supervised probation, and ordered to pay $402,000 in restitution to the victim.

                                                                                                      A rural carrier pled guilty in federal court in January 2014 to delay or destruction of mail and was sentenced to 2 years supervised release and ordered to pay a $5,000 fine. During
                                                                                                       the investigation, OIG agents received information that undelivered mail was located on the rural carrier’s property. During a search, OIG agents recovered more than 900 pieces of
Office of Investigations




                                                                                                       First-Class Mail, and large amounts of Standard Mail and Periodicals from the rural carrier’s residence, personal vehicle, and from other properties owned by the carrier’s family. In
                                                                                                       January 2013, the rural carrier resigned from the Postal Service.


                                                                                                     Financial Fraud
                                                                                                     A large portion of the $66 billion in revenue generated by the Postal Service is handled at the 32,000 postal retail locations. Our agents investigate employees who embezzle funds,
                                                                                                     misuse money orders, or steal and misuse postal-issued credit cards.

                                                                                                      An OIG investigation determined a Kentucky postmaster was manipulating postal money order transactions and embezzling Postal Service funds. During the interview, the postmaster
                                                                                                       admitted to accepting cash from customers for money order purchases and not entering the sale into the postal accountable system used to track sales and inventory. The scheme
                                                                                                       allowed the postmaster to enter the sales at a later date, when the deficits could be covered with additional sales. The postmaster confessed to stealing the cash over a 4-month
                                                                                                       period to support an addiction to prescription pain medication. The investigation resulted in the removal of the postmaster from the Postal Service. In November 2013, the former
                                                                                                       employee was sentenced in federal court to 6 months in prison, 3 years’ probation, and 60 days in a halfway house. The former postmaster was ordered to pay over $8,000 in
                                                                                                       restitution to the Postal Service.
Appendices




                           Kentucky postmaster admitted to accepting cash from customers for money    A New York customer service supervisor pled guilty in federal court to passing counterfeit money, theft or embezzlement of U.S. property/money, and misappropriation of
                           order purchases.                                                            Postal Service funds. The supervisor was sentenced to 6 months in prison, 42 months’ probation, 6 months of home confinement, and ordered to pay $84,000 in restitution to the
                                                                                                       Postal Service. The OIG received information from officials at the Postal Service that a supervisor removed U.S. currency from the daily bank deposits and replaced the currency with
                                                                                                       counterfeit bills. During an interview with agents, the supervisor admitted to her involvement in the scheme. The Postal Service terminated the supervisor in March 2013.




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                                                           Print                                                     10
                             Office of Investigations           Healthcare Fraud
Table of Contents
                                                              Healthcare Fraud
                                                              Employees who suffer work-related injuries or illnesses receive compensation and medical benefits in accordance with the Federal Employees Compensation Act (FECA), which is
                                                              administered by the Department of Labor/Office of Workers’ Compensation (DOL/OWCP). The benefits paid by the Postal Service to workers’ compensation claimants in FY 2013
                                                              totaled $1.37 billion. The Postal Service estimated total liability for future workers’ compensation costs was $17.2 billion, as of September 30, 2013.

                                                               A former letter carrier committed federal workers’ compensation fraud by providing false statements to DOL/OWCP to receive benefits. After an OIG investigation, the carrier was
                                                                arrested and charged with false statement or fraud to obtain federal employees’ compensation benefits. The investigation revealed that the carrier failed to report outside income and
                                                                employment and exceeded her medical restrictions while receiving OWCP benefits. The carrier was observed working as an assistant to her husband, a licensed master plumber, as
                                                                well as lifting heavy equipment, and playing golf. The carrier was sentenced in federal court to probation for 36 months, home confinement for 90 days, and ordered to pay about
                                                                $31,000 in restitution. As part of a plea agreement, the carrier resigned from the Postal Service and agreed not to seek future federal employment. The termination of her workers’
                                                                compensation benefits resulted in a cost avoidance to the Postal Service of more than $1.3 million.

                                                               An Oregon letter carrier was sentenced in January in federal court to 5 years’ supervised probation and approximately $31,000 in restitution to the Postal Service after pleading guilty
Office of Audit




                                                                to committing fraud to obtain federal employees’ workers’ compensation benefits. Our investigation found that the carrier owned and operated a childcare business and a separate
                                                                maid cleaning service while receiving workers’ compensation benefits from DOL. Surveillance of the carrier showed children being dropped off and picked up at her residence.
                                                                The carrier received payments from daycare recipients and business-related compensation benefits from the U.S. Department of Agriculture and the state of Oregon. The carrier’s
                                                                medical restrictions included no lifting, climbing, grasping, fine manipulation, reaching above shoulder, and no driving. The carrier was also observed driving on numerous occasions.
                                                                Our investigation found the carrier enrolled in a U.S. Agriculture Department-sponsored food program, on behalf of her childcare business. The state provided the carrier benefit
                                                                payments of $3,500 in 2010. Still, she reported no outside income or employment to DOL/OWCP and continued receiving workers’ compensation benefits. Our investigation also
                                                                determined the carrier, as a registered childcare provider in Oregon, received monthly payments from the state for providing child care to state Department of Health Services’ benefit
                                                                recipients. Because of our investigation, the carrier was terminated in October 2012. This resulted in a cost avoidance to the Postal Service of roughly $995,000.

                                                               The OIG conducted a multi-agency investigation with the California Department of Insurance, the DOL OIG, and the Los Angeles County In-Home Support Services (LA-IHSS) and
                                                                discovered that a California mail clerk failed to report income earned from a state benefit program while receiving OWCP benefits. The clerk earned income from LA-IHSS as a
Office of Investigations




                                                                care provider from August 2009 through January 2010, but failed to disclose this income to DOL. LA-IHSS is a program to assist California residents who are elderly, disabled,
                                                                medically or mentally ill. The investigation also revealed the clerk failed to report secondary income received while selling novelty items as a street vendor at several event locations.
                                                                In December 2013, the clerk pleaded guilty to one count of insurance fraud and was sentenced in state court to 5 years of probation, 30 days of community service, 1 day in jail,
                                                                a $280 fine, and ordered to pay roughly $50,000 in restitution to the Postal Service. In January 2013, the clerk retired while under investigation resulting in cost avoidance to the
                                                                Postal Service of about $333,600.
Appendices




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                       Print                                                      11
                             Office of Investigations           Contract Fraud/Major Fraud Investigations Division and Whistleblower Reprisal Activity
Table of Contents
                                                              Contract Fraud/Major Fraud Investigations Division
                                                              The Postal Service manages contracts ranging from multimillion dollar national contracts for services, such as transportation networks and IT infrastructures, to local contracts for
                                                              supplies and services at individual postal facilities. The OIG aids the Postal Service by investigating allegations of contract fraud, waste, and misconduct. When our investigations
                                                              document contract improprieties, special agents present the evidence for criminal and civil prosecution and administrative remedies. During this reporting period, our 96 contract fraud
                                                              investigations resulted in nine arrests, seven convictions, and more than $75 million in monetary benefits to the Postal Service.

                                                              The Major Fraud Investigations Division (MFID) investigates all allegations of fraud within the Postal Service’s programs and operations with a contract award price (individual or
                                                              aggregate) of $500,000 or more, as well as allegations that are or become national or multi-jurisdictional in nature, regardless of the contract award price.

                                                               A uniform vending scheme involving three separate vendors came to an end after an OIG investigation and resulted in fines of over $325,000 paid to the Postal Service.
                                                                In August 2010, we learned that Ace Uniforms, Inc. (Ace), a San Diego, CA, contractor, had purchase orders, packing slips, and credit card receipts that revealed violations of the
                                                                terms of the contract to sell Postal Service uniform items. This led to Ace losing its license to sell Postal Service uniforms and a revocation of its contract. We found the owner
                                                                later entered into an agreement with California Uniforms, Inc., a Los Angeles contractor. California Uniforms agreed to process Ace’s uniform sales for a 10 percent kickback. This
Office of Audit




                                                                practice continued until California Uniforms lost its license to sell Postal Service uniform items for violations similar to those of Ace. Even after California Uniforms lost its licenses,
                                                                we confirmed both Ace and California Uniforms continued to sell the uniforms. A search warrant was executed at California Uniforms’ sites in San Diego and Los Angeles and at
                                                                Ace’s sites in San Diego and Phoenix, AZ. Agents seized bank records, facsimiles, notes, logs, and approximately $600,000 in Postal Service uniforms. Records seized from
                                                                California Uniforms disclosed another kickback with a third uniform contractor in Hollywood, CA, identified as Merchandise Center, Inc. (Merchandise). The Postal Service revoked
                                                                Merchandise’s contract as well. The three California uniform vending contractors were sentenced in U.S. District Court for conspiracy to accept kickbacks on a government contract
                                                                and were ordered to pay $325,043 in fines and restitution payable to the Postal Service.

                                                               After pleading guilty to mail fraud, a psychologist in California was sentenced in February to 5 years of probation and 12 months of home confinement with electronic monitoring
                                                                and was ordered to pay $173,000 in restitution to the Postal Service. The OIG investigation revealed that the psychologist billed multiple federal health benefit plans for services not
                                                                rendered. Specifically, the psychologist submitted billings to government healthcare programs for services to more than 40 Postal Service employees for dates in which treatment was
                                                                not actually provided.
Office of Investigations




                                                               An OIG investigation determined a New York contractor failed to pay his employees prevailing wages on a Postal Service contract. The contractor pled guilty to one count of mail
                                                                fraud, wire fraud, and failure to collect and pay overdue taxes. The investigation also resulted in the contractor and related entities being debarred from government projects for 3
                                                                years. In December 2013, the contractor was sentenced to 90 days incarceration followed by 6 months home confinement, 2 years’ probation, and ordered to pay an additional
                                                                restitution of more than $224,000 on top of $1 million in restitution previously paid.


                                                              Whistleblower Reprisal Activity
                                                              The Whistleblower Protection Act does not apply to the
                                                              Postal Service. However, the Postal Service has its own
                                                              policy governing whistleblower retaliation. The policy
                                                              prohibits retaliation against employees who have disclosed
                                                              information they reasonably believe to be: 1) a violation of
                                                              any rule, law or regulation, or 2) a gross waste of funds,
                                                              gross mismanagement, abuse of authority, or a substantial
Appendices




                                                              and specific danger to public health or safety.




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                        Print                                                   12
Table of Contents
                           Appendices
                                                               The Inspector General (IG) Act of 1978 requires semiannual reports on the immediately preceding 6-month periods ending
                                                               September 30 and March 31. These reports are sent to Congress and made available to the public.

                                                               This report summarizes OIG activities and illustrates significant problems, abuses, and deficiencies, along with recommendations and corrective actions related to
                                Click on the appendix title    the administration of U.S. Postal Service programs and operations during the reporting period.

                                 to the right to navigate to   The appendices on the following pages fulfill the requirements of the Act.

                                     the section content.
                                                                 Appendix A.....................................................................................................................14    Appendix H.....................................................................................................................35
Office of Audit




                                                                    Reports Issued to Postal Service Management..............................................................14                          Investigative Statistics*...............................................................................................35
                                                                    Summary...................................................................................................................14      Appendix I......................................................................................................................36
                                                                    Definitions:.................................................................................................................14      Summary of U.S. Postal Inspection Service Actions Under 39 USC § 3005 and 3007......36
                                                                    Reports with Quantifiable Potential Monetary Benefits...................................................15                           Administrative Subpoenas Requested by the Postal Inspection Service...........................36
                                                                    Report Listing.............................................................................................................16     Appendix J.....................................................................................................................37
                                                                    PARIS Risk Models......................................................................................................17            All Closed Congressional/ PMG/BOG Inquires...............................................................37
                                                                 Appendix B.....................................................................................................................18       Inspector General Investigations (53)...........................................................................37
                                                                    Findings of Questioned Costs......................................................................................18                 Inspector General Audit Reports (5)..............................................................................42
                                                                 Appendix C ....................................................................................................................19       Risk Analysis Research Center Reports (2)....................................................................42
                                                                    Recommendations That Funds Be Put to Better Use......................................................19                              General Council and Support Functions (3)...................................................................42
Office of Investigations




                                                                 Appendix D ....................................................................................................................20       Referrals (3)...............................................................................................................42
                                                                    Other Impacts............................................................................................................20       Supplemental Information................................................................................................43
                                                                 Appendix E ....................................................................................................................21       Freedom of Information Act.........................................................................................43
                                                                    Reports with Significant Recommendations Pending Corrective Actions .........................21                                      Activities....................................................................................................................43
                                                                 Appendix F ....................................................................................................................34    Workplace Environment...................................................................................................43
                                                                    Significant Management Decisions in Audit Resolution .................................................34
                                                                 Appendix G.....................................................................................................................34
                                                                    Status of Peer Review Recommendations.....................................................................34
                                                                    Office of Audit............................................................................................................34
                                                                    Office of Investigations................................................................................................34
Appendices




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                                                                         Print                                                                            13
                             Appendices                                                  Appendix A
Table of Contents
                           Appendices                                                 Appendix A
                           The Inspector General (IG) Act of 1978 requires            Reports Issued to Postal Service Management
                           semiannual reports on the immediately preceding 6-month    For the period October 1, 2013 — March 31, 2014
                           periods ending September 30 and March 31.
                                                                                      OIG audit teams conduct performance and financial audits, evaluations, and other reviews to address the business of the Postal Service. Each
                           These reports are sent to Congress and made available to   team issues audit reports (AR), management advisory (MA) reports, or management alert (MA) reports in accordance with the identified needs
                           the public.                                                of the project.
                           This report summarizes OIG activities and illustrates
                           significant problems, abuses, and deficiencies, along
                                                                                      Summary
                           with recommendations and corrective actions related to
                                                                                                                           Number of               Funds Put                                     Unsupported
                           the administration of U.S. Postal Service programs and      Risk Categories                       Reports            To Better Use        Questioned Costs         Questioned Cost         Revenue Impact
                           operations during the reporting period.                     Revenue and Performance                      10                     —                        —                       —              $38,992,645

                           The appendices on the following pages fulfill the           Mission Operations                           12             $92,248,799              $25,912,322             $14,103,141                 $26,700
                                                                                       Support Operations                           13              $6,629,831              $5,405,335              $5,405,335                       —
Office of Audit




                           requirements of the Act.
                                                                                       Financial and Systems                        20                     —                 $1,757,345                     —                  $473,052
                                                                                       Accountability
                                                                                       SUB-TOTAL                                    55            $98,878,630              $33,075,002             $19,508,476            $39,492,397
                                                                                       PARIS Risk Model Reports                     29                     —                        —                       —                        —
                                                                                       Countermeasures and                              1                  —                        —                       —              $14,500,000
                                                                                       Performance Evaluation
                                                                                       TOTAL                                        85            $ 98,878,630            $ 33,075,002            $ 19,508,476            $ 53,992,397
Office of Investigations




                                                                                         Definitions:

                                                                                         Questioned Costs. A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract,
                                                                                         and so forth.

                                                                                         Unsupported Costs. A cost that is not supported by adequate documentation. Unsupported costs are included with the amounts
                                                                                         shown as Questioned Costs.

                                                                                         Funds Put to Better Use. Funds that could be used more efficiently by implementing recommended actions.

                                                                                         Revenue Impact. Amounts from revenue-generating functions such as retail sales, rent, leases, or fees that were underpaid or not
                                                                                         realized. In addition, this category includes increased revenue from existing functions and generating revenue from new sources.

                                                                                         PARIS Risk Models. Performance and Results Information System (PARIS) models with data visualization techniques. These models
Appendices




                                                                                         identify operational and financial risks, and enable OA staff to conduct reviews of Postal Service functions on a nationwide basis, while
                                                                                         also identifying areas of emerging risk — fundamentally challenging the way the OIG examines and monitors risk. We present quarterly
                                                                                         summary results and trend analyses of these risk models to key Postal Service executives and stakeholders.




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                                            Print              14
                             Appendices                            Appendix A
Table of Contents
                           Reports with Quantifiable Potential                                                                                     Funds Put                              Unsupported
                           Monetary Benefits                                                                                                    to Better Use    Questioned Costs     Questioned Costs     Revenue Impact
                                                                 REVENUE AND PERFORMANCE
                                                                 Sales and Marketing
                                                                 Inbound China ePacket Costing Methodology; MS-AR-14-002; 2/25/2014                        —                    —                    —         $38,992,645
                                                                 MISSION OPERATIONS
                                                                 Delivery and Post Office Operations
                                                                 Address Management System Data; DR-AR-14-003; 2/28/2014                           $16,130,760          $14,103,141          $14,103,141                —
                                                                 City Delivery Efficiency - South Florida District ; DR-AR-14-004; 3/4/2014       $30,587,250                   —                    —                  —
                                                                 Rural Delivery Operations - Mail Count and Timekeeping Processes;                $18,765,396                   —                    —                  —
                                                                 DR-AR-14-001; 12/13/2013
                                                                 Self-Service Kiosks; DR-AR-14-002; 1/22/2014                                     $24,860,335                   —                    —                  —
                                                                 Network Processing and Transportation
                                                                 Internal Controls and Transportation Associated With the Springfield, MA,         $1,905,058           $1,904,681                   —                  —
                                                                 Mail Transport Equipment Service Center; NO-AR-14-001; 12/20/2013
Office of Audit




                                                                 The Removal and Disposal of Capital Property – Atlanta Network Distribution               —                    —                    —              $26,700
                                                                 Center; NO-MA-14-002; 12/5/2013
                                                                 Voyager Card Program for Highway Contract Routes – Unidentified and                       —            $9,904,500                   —                  —
                                                                 Unrecovered Fuel Overpayments; NO-MA-14-001; 10/30/2013
                                                                 SUPPORT OPERATIONS
                                                                 Supply Management and Facilities
                                                                 Independent Audit of Northrop Grumman Technical Services Enterprise                       —            $2,839,251           $2,839,251                 —
                                                                 Management System Fiscal Year 2006 Incurred Cost Proposal;
                                                                 SM-CAR-14-001; 2/20/2014
                                                                 Lease Risk Model Analysis in the Northeast Area; SM-AR-14-001; 10/23/2013         $6,629,831                   —                    —                  —
                                                                 Transportation Management Service Provider Shipping Process;                              —            $2,566,084           $2,566,084                 —
                                                                 SM-AR-14-003; 2/24/2014
                                                                 FINANCIAL AND SYSTEMS ACCOUNTABILITY
Office of Investigations




                                                                 Finance
                                                                 Processes and Procedures Over Improper Payments ; FT-AR-14-001;                           —            $1,241,071                   —                  —
                                                                 10/22/2013
                                                                 Information Technology
                                                                 Controls Over the Premium Forwarding Service Point of Service Retail System;              —              $516,274                   —             $473,052
                                                                 IT-AR-14-002; 12/2/2013
                                                                 COUNTERMEASURES AND PERFORMANCE EVALUATION
                                                                 Data Mining
                                                                 P.O. Boxes: Move to Competitive Expansion Opportunities;                                  —                    —                    —          $14,500,000
                                                                 CAPE-TB-14-001; 3/5/2014
                                                                 TOTAL                                                                           $98,878,630          $33,075,002          $19,508,476         $53,992,397
Appendices




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                                Print              15
                             Appendices                          Appendix A
Table of Contents
                                                              Report Listing
                                                              Complete listing of all OIG reports issued to Postal Service management.

                                                              For the period October 1, 2013 — March 31, 2014


                                                              REVENUE AND PERFORMANCE                              Network Processing and Transportation              FINANCIAL AND SYSTEMS                              Postal Service Board of Governors Travel and
                                                                                                                                                                      ACCOUNTABILITY                                     Miscellaneous Expenses for Fiscal Year 2013;
                                                              Data Analysis and Performance                        Internal Controls and Transportation Associated
                                                                                                                                                                                                                         FT-AR-14-004; 1/30/2014
                                                                                                                   With the Springfield, MA Mail Transport            Finance
                                                              Monitoring of Government Travel Card
                                                                                                                   Equipment Service Center;                                                                             Processes and Procedures Over Improper
                                                              Transactions in the Western Area;                                                                       Fiscal Year 2013 Field Testing Control and
                                                                                                                   NO-AR-14-001; 12/20/2013                                                                              Payments; FT-AR-14-001; 10/22/2013
                                                              DP-MA-14-001; 12/9/2013                                                                                 Oversight Business Mail Entry Unit/Staged
                                                                                                                   Readiness for Package Growth – Processing          Detached Mail Unit Reviews Quarter 4;              Information Technology
                                                              Postal Service Knowledge Management Process;
                                                                                                                   Capacity; NO-AR-14-002; 1/21/2014                  FT-MA-14-002; 11/8/2013
                                                              DP-AR-14-002; 3/7/2014                                                                                                                                     Controls Over the Premium Forwarding Service
                                                                                                                   The Removal and Disposal of Capital Property –     Fiscal Year 2013 - Officers’ Travel and            Point of Service Retail System;
                                                              U.S. Postal Service’s Delivering Results, Value,
                                                                                                                   Atlanta Network Distribution Center;               Representation Expenses.;                          IT-AR-14-002; 12/2/2013
                                                              and Efficiency Initiative 6, Improve Employee
                                                                                                                   NO-MA-14-002; 12/5/2013                            FT-AR-14-008; 3/13/2014
                                                              Availability; DP-AR-14-001; 3/7/2014                                                                                                                       Fiscal Year 2013 Information Technology Internal
                                                                                                                   Voyager Card Program for Highway Contract          Fiscal Year 2013 Field Testing Control and         Controls; IT-AR-14-003; 3/26/2014
Office of Audit




                                                              Sales and Marketing
                                                                                                                   Routes – Unidentified and Unrecovered Fuel         Oversight Business Reply Mail Reviews Quarter 4;
                                                                                                                                                                                                                         Information Storage Security;
                                                              Controls over Nonprofit Mailing Authorization;       Overpayments; NO-MA-14-001; 10/30/2013             FT-MA-14-001; 11/8/2013
                                                                                                                                                                                                                         IT-AR-14-004; 3/27/2014
                                                              MS-MA-14-002; 3/17/2014
                                                                                                                   SUPPORT OPERATIONS                                 Fiscal Year 2013 Field Testing Control and
                                                                                                                                                                                                                         South Florida District Vulnerability Assessment;
                                                              Inbound China ePacket Costing Methodology;                                                              Oversight Plant Verified Drop Shipment Reviews
                                                                                                                   Human Resources and Support                                                                           IT-AR-14-001; 10/22/2013
                                                              MS-AR-14-002; 2/25/2014                                                                                 Quarter 4; FT-MA-14-003; 11/8/2013
                                                                                                                   Mail Isolation Control and Tracking;                                                                  COUNTERMEASURES AND PERFORMANCE
                                                              International Terminal Dues;                                                                            Fiscal Year 2013 Field Testing Control and
                                                                                                                   HR-MA-14-002; 12/3/2013                                                                               EVALUATIONS
                                                              MS-WP-14-002; 3/7/2014                                                                                  Oversight, Continuous Detached Mail Unit
                                                                                                                   Management of Equipment in Capitol Heights,        Reviews Quarter 4; FT-MA-14-004; 11/19/2013        Data Mining
                                                              Opportunities for the Postal Service - Micro-
                                                                                                                   MD; HR-MA-14-001; 11/20/2013
                                                              Warehousing and Other Logistics Support                                                                 Fiscal Year 2013 Financial Statements Audit -      P.O. Boxes: Move to Competitive Expansion
                                                              Services; MS-WP-14-003; 3/13/2014                    Security Risks in the Capital District;            Eagan Accounting Services;                         Opportunities; CAPE-TB-14-001; 3/5/2014
                                                                                                                   HR-MA-14-003; 1/27/2014                            FT-AR-14-006; 2/24/2014
                                                              Relationship Between Business Connect and Post                                                                                                             RISK ANALYSIS RESEARCH CENTER WHITE
                                                              Office Performance; MS-MA-14-001; 12/9/2013          Unscheduled Leave Activity in the Los Angeles      Fiscal Year 2013 Financial Statements Audit -      PAPERS
Office of Investigations




                                                                                                                   District; HR-MA-14-004; 2/6/2014                   St. Louis Accounting Services;
                                                              Revenue Performance to Plan for Fiscal Years                                                                                                               100 Years of Parcel Post;
                                                              2012 and 2013; MS-WP-14-001; 2/27/2014               Watch Desk Notifications;                          FT-AR-14-009; 3/20/2014                            RARC-WP-14-004; 12/20/2013
                                                                                                                   HR-MA-14-005; 2/27/2014                            Fiscal Year 2013 Financial Testing Compliance
                                                              Stamp Stock Ordering and Fulfillment;                                                                                                                      Enhancing the Value of Mail for Digital Natives;
                                                              MS-AR-14-001; 11/8/2013                              Supply Management and Facilities                   Oversight Reviews; FT-MA-14-005; 1/8/2014          RARC-WP-14-001; 11/18/2013
                                                              MISSION OPERATIONS                                   Cepheid Biohazard Detection System Royalty         Fiscal Year 2013 Postal Service Financial          Enriching Postal Information: Applications for
                                                                                                                   Refund; SM-MA-14-001; 12/3/2013                    Statements Audit - Washington, D.C.                Tomorrow’s Technologies;
                                                              Delivery and Post Office Operations                                                                     Headquarters; FT-AR-14-007; 2/21/2014              RARC-WP-14-006; 1/13/2014
                                                                                                                   Independent Audit of Northrop Grumman
                                                              Address Management System Data;                                                                         Fiscal Year 2013 Opinion on the U.S. Postal
                                                                                                                   Technical Services Enterprise Management                                                              Greenfield Costing Methodology: An
                                                              DR-AR-14-003; 2/28/2014                                                                                 Service’s Closing Package Financial Statements;
                                                                                                                   System Fiscal Year 2006 Incurred Cost Proposal;                                                       Opportunity to Deliver Transformative Change;
                                                              City Delivery Efficiency - South Florida District;   SM-CAR-14-001; 2/20/2014                           FT-AR-14-003; 12/16/2013                           RARC-WP-14-005; 1/7/2014
                                                              DR-AR-14-004; 3/4/2014                                                                                  Fiscal Year 2013 Statistical Test Reviews;
                                                                                                                   Lease Risk Model Analysis in the Northeast Area;                                                      Locality Pay; RARC-WP-14-008; 2/7/2014
                                                              Readiness for Package Growth – Delivery              SM-AR-14-001; 10/23/2013                           FT-MA-14-007; 3/7/2014
                                                                                                                                                                                                                         Providing Non-Bank Financial Services for the
                                                              Operations; DR-MA-14-001; 12/11/2013                                                                    Fiscal Year 2014 Field Testing Control and
                                                                                                                   Procurement-Related Ethical Violations at                                                             Underserved; RARC-WP-14-007; 1/27/2014
                                                              Metro Post Same Day Delivery Pilot - San             Vehicle Maintenance Facilities; SM-MA-14-002;      Oversight Reviews Quarter 1;
                                                                                                                                                                      FT-MA-14-006; 3/3/2014                             Strengthening Advertising Mail by Building a
                                                              Francisco District; DR-MA-14-002; 2/5/2014           12/18/2013
                                                                                                                                                                                                                         Digital Information Market;
                                                              Readiness for Package Growth - Customer              Risks Associated With CB Richard Ellis, Inc.       Independent Report on Employee Benefits,           RARC-WP-14-002; 12/11/2013
                                                              Service Operations; DR-MA-14-003; 3/31/2014          Contract; SM-MA-14-003; 2/12/2014                  Withholdings, Contributions, and Supplemental
                                                                                                                                                                      Semiannual Headcount Reporting Submitted to        Towards A Postal Service Intellectual Property
                                                              Rural Delivery Operations - Mail Count and           Spending Trends for Maintaining Postal Service     the Office of Personnel Management;                Strategy; RARC-WP-14-003; 12/18/2013
Appendices




                                                              Timekeeping Processes;                               Facilities; SM-AR-14-002; 11/27/2013               FT-AR-14-002; 11/8/2013                            What America Wants and Needs from the Postal
                                                              DR-AR-14-001; 12/13/2013
                                                                                                                   Supply Chain Relationship Management System        Officer Compensation for Calendar Year 2012;       Service; RARC-WP-14-009; 2/18/2014
                                                              Self-Service Kiosks; DR-AR-14-002; 1/22/2014         Requirements; SM-MA-14-004; 3/19/2014              FT-AR-14-005; 2/4/2014
                                                              Vehicle Parts Inventory Management-Capping;          Transportation Management Service Provider
                                                              DR-AR-14-005; 3/26/2014                              Shipping Process; SM-AR-14-003; 2/24/2014



                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                                     Print                                                       16
                             Appendices                          Appendix A
Table of Contents
                                                              PARIS Risk Models
                                                              Complete listing of all OIG PARIS Risk Models issued to Postal Service management.
                                                              For the Period: October 1, 2013 — March 31, 2014


                                                              Delivery and Post Office Operations                 Information Technology                             Sales and Marketing
                                                              Fiscal Year 2013 City Delivery Efficiency Risk      Fiscal Year 2013 Information Technology            Fiscal Year 2013 Retail Customer Service Risk
                                                              Model Quarter 4; DR-PM-14-001; 11/22/2013           Security Risk Model Quarter 4; IT-PM-14-001;       Model Quarter 4; MS-PM-14-001; 11/15/2013
                                                                                                                  11/13/2013
                                                              Fiscal Year 2014 City Delivery Efficiency Risk                                                         Fiscal Year 2013 Revenue Generation and
                                                              Model Quarter 1; DR-PM-14-002; 3/3/2014             Fiscal Year 2014 Information Technology Security   Protection Risk Model Quarter 4;
                                                                                                                  Risk Model Quarter 1; IT-PM-14-002; 2/10/2014      MS-PM-14-002; 11/15/2013
                                                              Fiscal Year 2014 Vehicle Maintenance Efficiency
                                                              Risk Model Quarter 1; DR-PM-14-003;                 Network Processing and Transportation              Fiscal Year 2014 Retail Customer Service Risk
                                                              3/3/2014                                                                                               Model Quarter 1; MS-PM-14-003; 2/18/2014
                                                                                                                  Fiscal Year 2013 Air Transportation Risk Model
                                                              Finance                                             Quarter 4; NO-PM-14-004; 11/15/2013                Fiscal Year 2014 Revenue Generation and
                                                                                                                                                                     Protection Risk Model Quarter 1;
                                                              Fiscal Year 2013 Bank Secrecy Act Risk Model        Fiscal Year 2013 Machines That Speak Risk
                                                                                                                                                                     MS-PM-14-004; 2/18/2014
Office of Audit




                                                              Quarter 4; FT-PM-14-001; 1/2/2014                   Model Quarter 4; NO-PM-14-001; 10/23/2013
                                                                                                                                                                     Supply Management and Facilities
                                                              Fiscal Year 2013 Business Mail Entry Unit Risk      Fiscal Year 2013 Network and Delivery
                                                              Model Quarter 4; FT-PM-14-003; 11/27/2013           Optimization Risk Model Quarter 4;                 Fiscal Year 2013 Real Estate Risk Model
                                                                                                                  NO-PM-14-003; 11/8/2013                            Quarter 4; SM-PM-14-002; 11/14/2013
                                                              Fiscal Year 2013 Financial Cost and Controls Risk
                                                              Model Quarter 4; FT-PM-14-002; 11/15/2013           Fiscal Year 2013 Surface Transportation Risk       Fiscal Year 2013 Supplier Solvency Risk Model
                                                                                                                  Model Quarter 4; NO-PM-14-002; 11/6/2013           Quarter 4; SM-PM-14-001; 11/15/2013
                                                              Fiscal Year 2014 Bank Secrecy Act Risk Model
                                                              Quarter 1; FT-PM-14-006; 2/14/2014                  Fiscal Year 2014 Air Transportation Module -       Fiscal Year 2014 Real Estate Risk Model
                                                                                                                  Summary of FY10 - FY13 Results Risk Model          Quarter 1; SM-PM-14-004; 2/14/2014
                                                              Fiscal Year 2014 Business Mail Entry Unit Risk
                                                                                                                  Quarter 1; NO-PM-14-006; 2/14/2014
                                                              Model Quarter 1; FT-PM-14-005; 2/18/2014                                                               Fiscal Year 2014 Supplier Solvency Risk Model
                                                                                                                  Fiscal Year 2014 Mail Processing Risk Model        Quarter 1; SM-PM-14-003; 2/14/2014
                                                              Fiscal Year 2014 Financial Cost and Controls Risk
                                                                                                                  Quarter 1; NO-PM-14-007; 2/14/2014
                                                              Model Quarter 1; FT-PM-14-004; 2/14/2014
                                                                                                                  Fiscal Year 2014 Surface Transportation Risk
                                                              Human Resources and Support
Office of Investigations




                                                                                                                  Model Quarter 1; NO-PM-14-005; 2/11/2014
                                                              Fiscal Year 2013 Human Capital Optimization Risk
                                                              Model Quarter 4; HR-PM-14-001; 11/19/2013
                                                              Fiscal Year 2013 Workplace Environment Risk
                                                              Model Quarter 4; HR-PM-14-002; 11/19/2013
                                                              Fiscal Year 2014 Human Resource Risk Model
                                                              Quarter 1; HR-PM-14-003; 2/14/2014
Appendices




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                               Print      17
                             Appendices                          Appendix B
Table of Contents
                                                              Appendix B
                                                              Findings of Questioned Costs
                                                              For the Period: October 1, 2013 — March 31, 2014

                                                              As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of questioned costs in audit reports.

                                                              Questioned Cost: A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, or contract.


                                                                                                                                                                                               Unsupported Costs
                                                                                                                                                            Number                                    Included in
                                                              Description                                                                                  of Reports   Questioned Costs        Questioned Costs
                                                              Reports for which no management decision was made at the beginning of the reporting period       1                  $2,400,000              $2,400,000
                                                              Reports requiring management decision that were issued during the reporting period               7                 $33,075,002             $19,508,476
                                                              Totals                                                                                           8               $35,475,002               $21,908,476
Office of Audit




                                                              Reports for which a management decision was made during the reporting period (i+ii)              7                 $32,635,751             $19,069,225
                                                                 (i) Dollar value of disallowed cost                                                           3                 $18,420,130             $16,669,225
                                                                 (ii) Dollar value of cost not disallowed                                                      5                 $14,215,621              $2,400,000
                                                              Reports for which no management decision was made by the end of the reporting period.            1                  $2,839,251              $2,839,251
                                                              Negotiations are ongoing.
                                                              Reports for which no management decision was made within 6 months of issuance                   —              —                      —
                                                              Reports for which no management decision was made within 1 year of issuance                     —              —                      —



                                                              Note 1 — Reports for which no management decision was made within 6 months of issuance:
                                                              None this report period.
Office of Investigations




                                                              Note 2 — Reports for which no management decision was made within 1 year of issuance:
                                                              None this report period.

                                                              Note 3 — Contract Reports with Significant Audit Finding:
                                                              None this report period.
Appendices




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                      Print                 18
                             Appendices                          Appendix C
Table of Contents
                                                              Appendix C
                                                              Recommendations That Funds Be Put to Better Use
                                                              For the Period: October 1, 2013 — March 31, 2014

                                                              As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of recommendations for funds
                                                              that can be put to better use by management.

                                                              Funds Put to Better Use: Funds that could be used more efficiently by implementing recommended actions.


                                                              Description                                                                                       Number of Reports          Dollar Value
                                                              Reports for which no management decision was made at the beginning of the reporting period                       —                      —
                                                              Reports issued during the reporting period                                                                        6            $98,878,630
                                                              TOTALS                                                                                                           6            $98,878,630
Office of Audit




                                                              Reports for which a management decision was made during the report period                                         6            $98,878,630
                                                                 (i) Value of recommendations agreed to by management                                                           3            $48,468,916
                                                                 (ii) Value of recommendations that were not agreed to by management                                            4            $50,409,714
                                                              Reports for which no management decision was made by the end of the reporting period                             —                      —
                                                              Reports for which no management decision was made within six months of issuance (See Note 1 for                  —                      —
                                                              a list of individual reports)
                                                              Reports for which no management decision was made within one year of issuance (See Note 2 for a                  —                      —
                                                              list of individual reports)


                                                              Note 1 — Reports for which no management decision was made within 6 months of issuance:
                                                              None for this report period.
Office of Investigations




                                                              Note 2 — Reports for which no management decision was made within 1 year of issuance:
                                                              None for this report period.
Appendices




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                   Print           19
                             Appendices                          Appendix D
Table of Contents
                                                              Appendix D
                                                              Other Impacts
                                                              For the period October 1, 2013 — March 31, 2014

                                                              Overview
                                                              Many of our audit reports identify areas for improvement that result in non-monetary benefits to the Postal Service. These benefits include
                                                              improvements to service, protection of assets and improvements in the reliability of data.

                                                                                                                                                                                                 Type of Measure                  Value or Amount
                                                              IMPROVED SERVICE
                                                              Recommendations that address the Postal Service’s efforts to improve the quality and accessibility of its products and             Number of Recommendations                        22
                                                              services
                                                              Number of customer service audits conducted                                                                                        Number of Audits                                 12


                                                              SAFEGUARDING ASSETS
Office of Audit




                                                              Assets or Accountable Items at Risk
                                                              Inadequate internal controls put the value of assets or accountable items (e.g., cash and stamps) at risk of loss                  Dollar Value                         $345,500,562
                                                              Physical Safety and Security
                                                              Dollar value of physical assets (plant, computer equipment, vehicles, etc.) at risk of loss due to inadequate                      Dollar Value                                     —
                                                              physical protection
                                                              Recommendations that address the safety and security of Postal Service employees and/or the work environment                       Number of Recommendations                        13
                                                              Number of employee/facility safety and security audits conducted                                                                   Number of Audits                                 13
                                                              Information Technology Security
                                                              Inadequate controls/protection put the value of data, IT assets (software, networks), and employee work time at                    Dollar Value                                     —
                                                              risk of loss
                                                              Dollar value of data at risk                                                                                                       Dollar Value                                     —
Office of Investigations




                                                              Number of data security/IT security audits conducted                                                                               Number of Audits                                  7
                                                              Revenue at Risk
                                                              Dollar value of revenue that the Postal Service is at risk of losing (mailer seeking alternative solutions for current services)   Dollar Value                         $119,890,320
                                                              Disbursements at Risk
                                                              Dollar value of disbursements made where proper Postal Service internal controls and processes were not followed                   Dollar Value                               $605,838
                                                              Goodwill/Branding
                                                              An adverse impact on goodwill is an actual event/problem that harms the Postal Service’s reputation or a potential                 Number of Issues Identified                      18
                                                              problem that could negatively impact the Postal Service “brand name”
                                                              Misallocation of Costs
                                                              A misallocation of costs can occur when Postal Service costs are misclassified as volume variable, product specific,               Dollar Value                                     —
                                                              or institutional cost
                                                              Capital Investment Savings Shortfall and Predicted Savings Shortfall
                                                              The difference between the savings predicted by the Decision Analysis Report for capital investment projects and the               Dollar Value                                     —
                                                              actual savings realized, and the difference between the savings predicted by the Postal Service for a project
                                                              (e.g., capital investment, consolidation, etc.) and the actual savings realized or the OIG estimate of savings
                                                              which will be realized
                                                              Potential Additional Revenue
Appendices




                                                              Revenue the Postal Service potentially generate for goods delivered or services rendered based on suggested                        Dollar Value                              $7,137,890
                                                              improvements


                                                              RELIABILITY OF DATA
                                                              Records at Risk
                                                              Data at risk of corruption or loss due to inadequate internal controls and or protection                                           Number of Data Records at Risk                  325
                                                              Dollar value of data used to support management decisions that is not fully supported or completely accurate                       Dollar Value                             $15,023,269

                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                                                       Print                 20
                             Appendices                         Appendix E
Table of Contents
                                                              Appendix E
                                                              Reports with Significant Recommendations Pending Corrective Actions
                                                              For the period through March 31, 2014

                                                              As required by the IG Act, the following pages include a list of each audit report for which no management decision has been made by the end of
                                                              the reporting period.
                                                                                                             Report Title, Recommendation Summary
                                                                                                             R = Recommendation number
                                                               Report Number        Issued Date              TID = Target Implementation Date
                                                               FF-MA-08-001         07/21/2008               Fiscal Year 2008 – Use of No-Fee Money Orders

                                                                                                             R-2 — Evaluate the feasibility of restricting the use of no-fee money orders for local purchases in order to reduce the Postal
                                                                                                                   Service’s exposure to financial loss. TID: September 2013
                                                               IS-AR-09-004         02/20/2009               Access Controls in the Enterprise Data Warehouse

                                                                                                             R-3 — Update the Business Impact Assessment for the Enterprise Data Warehouse and recertify the system as required by
                                                                                                                   Postal Service Handbook AS-805-A, Application Information Security Assurance Process. TID: September 2014
Office of Audit




                                                               IS-AR-10-008         05/04/2010               Certification and Accreditation Process

                                                                                                             R-9 — Work with executive sponsors to resolve unmitigated residual risks identified in the risk mitigation plans and
                                                                                                                   recertification letters associated with the critical applications. TID: May 2014
                                                               CA-AR-10-004         05/27/2010               Contract Payment Terms

                                                                                                             R-1 — Revise the Postal Service’s Supplying Principles and Practices, Section 5 12.2, Payment Time Frame, and other sections
                                                                                                                   as necessary, with language stating that when contracting officers negotiate payment terms other than net 30 days they
                                                                                                                   include the business rationale and associated documentation for the payment terms in the contract file.
                                                                                                                   TID: February 2014
                                                               DA-MA-10-004         08/31/2010               Postal Service Patent Management

                                                                                                             R-1 — Establish a strategic plan with timelines to capitalize on the Postal Service’s patent inventory strength. TID: June 2012
                                                               CA-AR-10-005         09/20/2010               U.S. Postal Service Purchasing Policies

                                                                                                             R-5 — Take steps to ensure full and accurate tracking and public reporting of noncompetitive contracting actions. Data reported
Office of Investigations




                                                                                                                   should include, but not be limited to, total dollars committed both competitively and noncompetitively; and the contractor,
                                                                                                                   dollar value, and noncompetitive justifications for noncompetitive contracts. The tracking mechanism should be able to
                                                                                                                   identify when a noncompetitive contract has crossed the review and approval threshold based on modification after initial
                                                                                                                   award. TID: February 2012
                                                               IS-AR-10-014         09/23/2010               Controls Over Payment Card Transaction Data

                                                                                                             R-1 — Finalize and implement a Payment Card Industry remediation plan that includes all associated costs, resources, and
                                                                                                                   milestones needed to achieve and maintain Payment Card Industry-Data Security Standards compliance.
                                                                                                                   TID: December 2014
                                                               NL-AR-10-009         09/29/2010               Management of Mail Transport Equipment - National Analysis

                                                                                                             R-1 — Further develop, update and reinforce national mail transport equipment policies and procedures contained in the Postal
                                                                                                                   Operations Manual and the Postal Handbook PO-502, Container Methods, which address mail transport equipment
                                                                                                                   inventory and accountability controls, including validating customer mail transport equipment needs as well as tracking
                                                                                                                   and reconciling mail transport equipment loaned to mailers and other external customers. TID: February 2014
                                                               CA-AR-10-006         09/30/2010               Certification Process for Electronic Payments

                                                                                                             R-1 — Develop an oversight mechanism to monitor and ensure contracting officers’ and/or designated officials’ receipt and
                                                                                                                   certification of invoices. TID: October 2012
                                                                                                             R-2 — Reiterate to contracting officers and/or their designees their roles and responsibilities, and the importance of following
                                                                                                                   Postal Service criteria, policies, and procedures for certification of invoices prior to payment to ensure that invoices are
                                                                                                                   correct and goods and services were received. TID: February 2014
Appendices




                                                                                                             R-3 — Develop and implement written procedures for receiving invoices for annual highway contract route services and verifying
                                                                                                                   that services were rendered prior to payment. TID: October 2014
                                                                                                             R-8 — Ensure that Utility Management System designated official contact information is accurate and that the system requires
                                                                                                                   positive certification by the designated official before invoice payment. TID: November 2013
                                                               FF-AR-11-004         12/15/2010               Express Mail Guarantees
                                                                                                             R-5 — Establish a timeframe for and develop a process to analyze Express Mail refunds by origin and destination to evaluate risk
                                                                                                                   and identify necessary changes in service in order to make better business decisions for guarantees.
                                                                                                                   TID: December 2014

                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                                              Print                    21
                             Appendices                        Appendix E
Table of Contents
                                                                                            Report Title, Recommendation Summary
                                                                                            R = Recommendation number
                                                              Report Number   Issued Date   TID = Target Implementation Date
                                                              IT-AR-11-004    03/16/2011    Computer Incident Data Reliability

                                                                                            R-4 — Either modify the existing incident management system or pursue development of a new system that enforces date and
                                                                                                  time value sequence and data validation. TID: September 2014
                                                              DA-MA-11-002    04/08/2011    Postal Service Patent Management Continuation

                                                                                            R-1 — Work closely with subject matter experts to review highly rated patents to draft claims as appropriate.
                                                                                                  TID: September 2013

                                                                                            R-3 — Ensure the Postal Service has an effective patent management process and comprehensive licensing program in place.
                                                                                                  This establishes control that protects intellectual capital and provides an appropriate return on investment.
                                                                                                  TID: September 2013
                                                              CA-AR-11-004    04/27/2011    Internal Controls over the Contract Close-out Process

                                                                                            R-3 — Establish a periodic control to ensure category management center personnel follow records management requirements
                                                                                                  for contract files, including, but not limited to retaining records for the required 6 years. TID: December 2013
Office of Audit




                                                              DA-AR-11-010    08/30/2011    Intelligent Mail: Realizing Revenue Assurance Benefits

                                                                                            R-1 — Establish timeframes for implementing the enhanced/expanded automated verifications as described in the original
                                                                                                  Intelligent Mail infrastructure Decision Analysis Report. TID: January 2013

                                                                                            R-2 — Develop a tolerance level for low scan rates to use for exception reporting. TID: January 2013

                                                                                            R-3 — Develop a process for identifying the cause(s) of low scan rates for customer follow-up as warranted. TID: January 2013
                                                              FF-AR-11-013    08/30/2011    Postal Service Refunds

                                                                                            R-2 — Analyze and establish an administrative and minimum fee that will cover processing costs. TID: January 2014
                                                              CRR-AR-11-003   09/06/2011    Service Performance Measurement Data - Commercial Mail

                                                                                            R-1 — Establish milestones for implementing recovery of Full-Service Intelligent Mail Barcode discounts provided to mailers
                                                                                                  when Full-Service mailings do not meet the specific requirements for the discounts received. TID: November 2013
                                                              IT-AR-11-008    09/14/2011    Remote Access Controls
Office of Investigations




                                                                                            R-11 — Suspend remote access for all employees or contractors until they complete required security awareness training.
                                                                                                   TID: June 2014
                                                              HR-AR-11-002    09/19/2011    Postal Service Work Rules and Compensation Systems

                                                                                            R-3 — A comprehensive study to determine the optimal incentive-based carrier compensation system. TID: June 2013
                                                              FF-AR-11-015    09/23/2011    Business Mail Acceptance Centralization Process

                                                                                            R-2 — Require each district to conduct a centralization feasibility study, document the results, and take action based on the
                                                                                                  results of the study, as appropriate. TID: October 2013

                                                                                            R-3 — Manage business mail entry workhour usage to achieve 93 percent efficiency and develop tools to monitor performance.
                                                                                                  TID: October 2013

                                                                                            R-4 — Establish annual goals for business mail entry workhour efficiency to include measuring performance against goals.
                                                                                                  TID: October 2013
                                                              CA-AR-11-007    09/30/2011    Contract Postal Units Contract Oversight

                                                                                            R-1 — Require Contract Postal Unit contractors to submit invoices for payment. TID: November 2013

                                                                                            R-2 — Create a process to ensure the contracting officer or contracting officer’s representative validates and certifies invoices
                                                                                                  prior to payment, using data maintained in the Contract Postal Unit Technology system. TID: November 2013
                                                              HR-AR-11-007    09/30/2011    Postal Service Workers’ Compensation Program

                                                                                            R-5 — Develop mandatory and refresher training for Postal Service officials responsible for workers’ compensation to ensure
Appendices




                                                                                                  they are aware of their roles and responsibilities for workers’ compensation. TID: October 2014




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                            Print                    22
                             Appendices                        Appendix E
Table of Contents
                                                                                            Report Title, Recommendation Summary
                                                                                            R = Recommendation number
                                                              Report Number   Issued Date   TID = Target Implementation Date
                                                              MS-AR-11-007    09/30/2011    Strategic Approaches to Revenue Protection

                                                                                            R-1 — Work with a broadened group of internal and external stakeholders to prepare for streamlining the entry of business mail,
                                                                                                  accelerate the timeline for streamlined acceptance and verification, and seek to leverage technology to provide revenue
                                                                                                  protection for Basic Service Intelligent Mail and non-automated volumes. TID: October 2013
                                                              IT-AR-12-001    10/21/2011    State of Corporate Information Technology Security

                                                                                            R-2 — Complete the certification and accreditation process for the remaining national applications. TID: December 2013

                                                                                            R-4 — Implement a corporate-wide encryption solution to enhance the sensitive data protection effort. TID: October 2013
                                                              CA-AR-12-001    11/02/2011    Contracting Opportunities and Impact of the Service Contract Act

                                                                                            R-2 — Review the benefits of outsourcing cleaning/janitorial service positions and postal service vehicle driver positions and
                                                                                                  work with Supply Management to restructure those positions to achieve the most cost effective solution.
                                                                                                  TID: March 2013

                                                                                            R-3 — Working with Supply Management and Postal Service program officials, ensure that appropriate financial data are
                                                                                                  collected to aid in making in-sourcing/outsourcing decisions. TID: March 2013
Office of Audit




                                                              IT-AR-12-002    01/09/2012    Patch Management Processes

                                                                                            R-1 — Ensure that all operating system and database patches are tested, documented, and implemented as required by
                                                                                                  Handbook AS-805, Information Security. TID: September 2014

                                                                                            R-2 — Ensure that administrators obtain required policy exception approvals when system patches are not applied.
                                                                                                  TID: September 2014

                                                                                            R-3 — Ensure that written procedures are developed to define the patch management process for each group, operating
                                                                                                  system, and database to include test and back-out plans. TID: September 2014

                                                                                            R-4 — Ensure that configuration management inventory records are reconciled to the actual servers and databases for their
                                                                                                  respective group. TID: September 2014

                                                                                            R-6 — Implement a common method for all entities to track information technology asset and patch information.
                                                                                                  TID: September 2014
Office of Investigations




                                                                                            R-7 — Ensure vulnerability mediation training is provided to all employees and contractors responsible for enterprise patch
                                                                                                  management. TID: September 2014

                                                                                            R-8 — Conduct risk assessments and cost analyses to develop an enterprise-wide migration plan for upgrading unsupported
                                                                                                  operating systems and databases to vendor-supported software. TID: September 2014

                                                                                            R-9 — Adopt a method to identify, capture, and report patch management metrics to assist with oversight of the patch
                                                                                                  management process and facilitate related business and security decisions. TID: September 2014
                                                              IT-AR-12-003    01/09/2012    Fiscal Year 2011 Information Technology Internal Controls

                                                                                            R-1 — Implement corrective actions to address all open issues noted in this report for fiscal years 2010 and 2011.
                                                                                                  TID: April 2014
                                                              MS-AR-12-002    01/12/2012    Mail Verification Procedures at Detached Mail Units

                                                                                            R-1 — Review automation efforts to date to identify improvements that can be made in the interim while mailers continue to
                                                                                                  implement Intelligent Mail barcode technologies. TID: June 2013

                                                                                            R-2 — Continue ongoing mail verification training efforts while detached mail unit employees continue to use manual mail
                                                                                                  verification processes. TID: October 2013

                                                                                            R-3 — Enhance automated systems to notify managers when acceptance employees override Mail Evaluation Readability
                                                                                                  Lookup Instrument results. TID: June 2013

                                                                                            R-4 — Develop and implement automated tools that managers can use to monitor and evaluate detached mail unit staffing and
                                                                                                  scheduling. TID: June 2013
Appendices




                                                              CI-AR-12-004    02/02/2012    Domestic Mail Manual Preparation and Acceptance Mail Instructions

                                                                                            R-1 — Combine and remove all duplications in the Domestic Mail Manual, Quick Service Guides, Business Mail Acceptance, Job
                                                                                                  Aids, and Customer Support Rulings; and publish a new document available to all mailers online. TID: November 2013

                                                                                            R-2 — Migrate to a one permit per customer requirement using PostalOne! TID: August 2013

                                                                                            R-3 — Archive all PostalOne! deleted or canceled permits. TID: April 2015



                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                           Print                   23
                             Appendices                        Appendix E
Table of Contents
                                                                                            Report Title, Recommendation Summary
                                                                                            R = Recommendation number
                                                              Report Number   Issued Date   TID = Target Implementation Date
                                                              NL-AR-12-001    02/02/2012    Postal Vehicle Service Transportation Routes – Margaret L. Sellers Processing and Distribution Center

                                                                                            R-2 — Verify the reallocation of 2,424 workhours within existing postal vehicle service (PVS) schedules and reallocate an
                                                                                                  additional 5,728 workhours within PVS schedules to accommodate future Flats Sequencing System implementation.
                                                                                                  TID: November 2012
                                                              NO-MA-12-001    04/27/2012    Assessment of Overall Plant Efficiency 2012

                                                                                            R-1 — Reduce 14,268,171 workhours by fiscal year 2014 with an associated economic impact of $664,997,872.
                                                                                                  TID: September 2014
                                                              MS-AR-12-003    05/04/2012    Package Delivery Growth

                                                                                            R-2 — Develop enhancements to the CustomerFirst! system to ensure that the data and information contained within are reliable
                                                                                                  and useful. TID: January 2015

                                                                                            R-4     Evaluate the feasibility of offering a local product the customer either arranges to have picked up or takes to the local
                                                                                                    Post Office for sortation and delivery without involving a mail processing plant. TID: December 2013

                                                                                            R-5 — Continue to pursue legislative change that will allow the Postal Service to ship beer and wine. TID: January 2014
Office of Audit




                                                              NL-AR-12-006    05/29/2012    POSTAL SERVICE INITIATIVE: Consolidation of Mail for Transportation Between Network Distribution Centers

                                                                                            R-3 — Add Jacksonville Network Distribution Center’s Puerto Rico Highway Contract Routes 32202 and 32204 into the
                                                                                                  consolidation initiative. TID: September 2012
                                                              DR-AR-12-001    06/05/2012    City Delivery – Street Efficiency San Diego District

                                                                                            R-1 — Reduce 83,943 workhours to achieve an associated economic impact of more than $3.3 million annually or $6.8 million
                                                                                                  over 2 years. TID: October 2014
                                                              NO-AR-12-005    06/05/2012    Efficiency Review of the Cleveland, OH Processing and Distribution Center

                                                                                            R-1 — By fiscal year 2017, reduce workhours by 352,388 to produce a cost avoidance of $22.7 million over the following
                                                                                                  2 years, or through consolidations, increase mail volume by 377 million, or a combination of workhours reductions and
                                                                                                  mail volume increases that will achieve the median productivity level of 1,069 pieces per hour. TID: September 2014
                                                              IT-AR-12-008    06/25/2012    Security Awareness Training Program
Office of Investigations




                                                                                            R-4 — Work with applicable managers to take appropriate action, including suspending access if necessary, to ensure
                                                                                                  employees and contractors complete the security awareness training in compliance with Handbook AS-805, Information
                                                                                                  Security, and regulatory requirements. TID: June 2014
                                                              DA-MA-12-005    07/16/2012    21st Century Post Office: Non-Postal Products and Services

                                                                                            R-1 — Develop a strategy to identify, evaluate and offer the most promising non-postal products and services, including how to
                                                                                                  overcome identified barriers, when legislation permits. TID: December 2015
                                                              NO-AR-12-007    08/03/2012    Efficiency Review of the Los Angeles Network Distribution Center

                                                                                            R-1 — Reduce workhours by 200,019 by fiscal year 2017 to produce an annual cost avoidance of about $6.5 million, or
                                                                                                  increase volume by 39 million pieces, or combine workhour reductions and mail volume increases that will achieve the
                                                                                                  above average median productivity level of 117 pieces per hour. TID: February 2015
                                                              CI-AR-12-006    08/14/2012    Delivery Fleet Strategies

                                                                                            R-2 — Establish an annual new vehicle replacement strategy, as part of a comprehensive fleet management strategy, to replace
                                                                                                  part of the fleet each year, spread out the expenditures over time, and ensure the overall operational functionality of the
                                                                                                  fleet. TID: September 2016
                                                              DR-AR-12-003    08/16/2012    City Delivery – Street Efficiency Capital District

                                                                                            R-1 — Reduce 110,740 workhours to achieve an associated economic impact of $4.5 million annually, or $9 million over
                                                                                                  2 years. TID: October 2014
                                                              DR-AR-12-004    08/16/2012    City Delivery – Street Efficiency Louisiana District
Appendices




                                                                                            R-1 — Reduce 107,550 workhours to achieve an associated impact of more than $4.4 million annually, or $8.8 million over
                                                                                                  2 years. TID: September 2014
                                                              EN-AR-12-003    08/17/2012    Efficiency of Customer Service Operations

                                                                                            R-3 — Provide training as needed to customer service managers that would enable them to effectively use managerial reports
                                                                                                  and tools. TID: September 2013




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                              Print                  24
                             Appendices                        Appendix E
Table of Contents
                                                                                            Report Title, Recommendation Summary
                                                                                            R = Recommendation number
                                                              Report Number   Issued Date   TID = Target Implementation Date
                                                              DR-AR-12-005    08/21/2012    Carrier Optimal Routing System Phase ll

                                                                                            R-1 — Continue to pursue funding to resolve performance issues with the Web Carrier Optimal Routing system and implement
                                                                                                  the web-based program nationwide. TID: April 2014
                                                              DR-AR-12-006    08/24/2012    City Delivery Staffing

                                                                                            R-1 — Balance the number of full-time carriers per route and manage labor cost within established fiscal year budgets. TID: None

                                                                                            R-2 — Continue pursuing the ability to increase the number of part-time, non-career flexible employees at installations nationwide
                                                                                                  in the city letter carrier craft to reduce labor costs. TID: None
                                                              DR-MA-12-002    08/24/2012    City Delivery Route Optimization Pilot Initiative

                                                                                            R-2 — Execute a new initiative to maximize savings by using lessons learned and data results from the pilot with the goal of
                                                                                                  optimizing the full- and part-time staff mix. TID: None
                                                              MS-AR-12-007    09/10/2012    Customer Complaint Resolution Process

                                                                                            R-2 — Identify deficiencies and desired enhancements for the Enterprise Consumer Care system and take necessary action to
Office of Audit




                                                                                                  notify the Information Technology department. TID: March 2014
                                                              IT-AR-12-009    09/12/2012    Security of File Transfer Protocol Transmissions

                                                                                            R-1 — Assign a controlling authority the responsibility for managing all electronic file transfer activities and enforcing electronic
                                                                                                  file transfer policies. TID: September 2017

                                                                                            R-3 — Direct the controlling authority identified in recommendation 1 to develop a business case solution to mitigate and,
                                                                                                  ultimately, eliminate the use of file transfer protocol transmissions to ensure the protection of sensitive data in accordance
                                                                                                  with Handbook AS-805, Information Security. TID: September 2017

                                                                                            R-4 — Conduct periodic security assessments to identify and monitor file transfer protocol usage throughout the Postal Service
                                                                                                  network. TID: September 2017

                                                                                            R-5 — Identify, monitor, and remove all unnecessary file transfer protocol services running on all servers and mainframes and
                                                                                                  identify the related sensitive applications. TID: September 2017

                                                                                            R-6 — Implement a secure electronic file transfer protocol for receiving manifest files from external business partners.
Office of Investigations




                                                                                                  TID: September 2017
                                                              DA-AR-12-002    09/18/2012    Lease Purchase Options for Postal Service Facilities

                                                                                            R-2 — Establish procedures for assigning lease purchase options to third parties in the real estate market. TID: November 2013
                                                              HR-AR-12-006    09/21/2012    Motor Vehicle Accident Prevention Program

                                                                                            R-2 — Provide periodic refresher training to supervisors on the Safe Driver Program and ensure employees performing driving
                                                                                                  observations take the Driver Observation training course. TID: June 2013
                                                              NL-AR-12-008    09/21/2012    St. Louis Network Distribution Center — Postal Vehicle Service Operations

                                                                                            R-1 — Periodically assess postal vehicle service spotter truck driver workload and staffing requirements with respect to
                                                                                                  productivity standards to maintain appropriate staffing levels. TID: July 2012

                                                                                            R-3 — Ensure that St. Louis Network Distribution Center management re-emphasize the safety policy that drivers must wear
                                                                                                  safety belts whenever the vehicle is in motion and provide management oversight for enforcement. TID: September 2012
                                                              CA-AR-12-006    09/28/2012    Oversight of Equitable Adjustments

                                                                                            R-1 — Require contracting officers to include a general release of claims in all supplemental agreements that constitute a
                                                                                                  release by the supplier for additional costs beyond that which is provided for in the contract modification or a more
                                                                                                  specific release in complex or contentious equitable adjustments. TID: November 2012

                                                                                            R-3 — Reiterate the contract file tracking process to ensure contract files are not lost when they are transferred from one office
                                                                                                  to another. TID: December 2013
                                                              CI-AR-12-007    09/28/2012    Post-Implementation Review Process
Appendices




                                                                                            R-1 — Improve the Post-Implementation Review (PIR) process in Handbook PO-408, Area Mail Processing Guidelines, to:
                                                                                                  Identify and separate savings and costs associated with concurrent initiatives from savings and costs directly related
                                                                                                  to the area mail processing consolidation. Implement the use of automated data calculation and pre-population for PIR
                                                                                                  worksheets and checklists. Establish a process to allocate savings and costs when multiple consolidations are made into
                                                                                                  the same gaining facility. Assess whether current PIR timelines should be adjusted. TID: March 2014
                                                              DA-AR-12-004    09/28/2012    Accuracy of the Electronic Facilities Management System

                                                                                            R-3 — Develop and administer training for the use of Electronic Facilities Management System. TID: None

                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                               Print                     25
                             Appendices                        Appendix E
Table of Contents
                                                                                            Report Title, Recommendation Summary
                                                                                            R = Recommendation number
                                                              Report Number   Issued Date   TID = Target Implementation Date
                                                              DA-MA-12-006    09/28/2012    Partnerships with Other Government Agencies

                                                                                            R-1 — Clearly define organizational roles and responsibilities for developing and managing partnerships with other federal
                                                                                                  agencies and establish a written policy to identify, develop, track, and follow-up on potential partnership opportunities.
                                                                                                  TID: February 2013
                                                              DR-MA-12-003    09/28/2012    City Delivery Operations - Lancaster Carrier Annex

                                                                                            R-1 — Reduce 12,339 office and street workhours in fiscal years 2013 and 2014 to achieve an annualized economic impact of
                                                                                                  $515,838, or $1,031,676 over 2 years. TID: September 2014
                                                              NL-AR-12-010    09/28/2012    First-Class Mail on Air Transportation – Assignment by Weight

                                                                                            R-1 — Modify the assignment process to assign First-Class Mail to air transportation considering weight where feasible, with
                                                                                                  the heavier mail being assigned to FedEx and the lighter mail being assigned to United Parcel Service and commercial
                                                                                                  passenger air carriers – with consideration of contractor service performance and future air transportation contract
                                                                                                  requirements. TID: December 2014
                                                              NL-AR-12-011    09/28/2012    Mail Transport Equipment – Shortages of Pallets, Tubs, and Trays – Fall 2011 Mailing Season

                                                                                            R-2 — Finalize implementation of prior U.S. Postal Service Office of Inspector General recommendations from the Management
Office of Audit




                                                                                                  of Mail Transport Equipment (MTE) – National Analysis audit (Report Number NL-AR-10-009, dated September 29,
                                                                                                  2010) covering an automated inventory and tracking system, ensuring adequate resources for areas and plants, and
                                                                                                  update policies and procedures that support current MTE operational requirements. TID: October 2013

                                                                                            R-4 — Evaluate the best practices identified in this report and identify any applicable industry best practices for implementation
                                                                                                  (considering costs and benefits), such as the viability of implementing Radio Frequency Identification technology to
                                                                                                  control the leakage of plastic pallets and reduce annual purchase of replacement plastic pallets. TID: March 2013
                                                              DA-MA-13-001    10/02/2012    Biohazard Detection System Progress

                                                                                            R-1 — Complete a comprehensive update to the 2002 threat assessment to determine risks to the mail stream prior to
                                                                                                  procuring new biohazard detection equipment. TID: September 2013

                                                                                            R-2 — Develop a policy requiring periodic update of threat assessments. TID: July 2013
                                                              CA-AR-13-001    10/09/2012    Best Value in the Purchasing Process

                                                                                            R-2 — Update the contract file transfer process to include a step to require the receiving contract officials to certify that contract
Office of Investigations




                                                                                                  files contain required documentation. TID: March 2014
                                                              DR-AR-13-001    10/11/2012    Delivery Operations Data Usage

                                                                                            R-1 — Streamline systems, reports (including exception based reporting) and data (including real-time data) to meet city
                                                                                                  delivery needs. TID: June 2012
                                                              DP-AR-13-001    01/03/2013    Caller and Reserve Service Operations

                                                                                            R-1 — Implement, if feasible, an automated process to identify all inactive or unassigned caller and reserve service addresses by
                                                                                                  linking mailing data systems to the Web Box Activity Tracking System. TID: August 2013

                                                                                            R-3 — Update caller and reserve service policies and procedures so they are consistent, clear, accurate, and easily located and
                                                                                                  accessible in one place. TID: January 2014
                                                              IT-AR-13-003    01/28/2013    Fiscal Year 2012 Information Technology Internal Controls

                                                                                            R-3 — Implement corrective actions as coordinated between the Information Technology Sarbanes-Oxley Compliance
                                                                                                  Management Office and the U.S. Postal Service Office of Inspector General during the audit relating to use of scans,
                                                                                                  scripts, and monitoring efforts to confirm the installation and reporting of intrusion detection and prevention software or
                                                                                                  services on all in-scope Windows and UNIX servers. TID: April 2014

                                                                                            R-6 — Implement corrective actions as coordinated between the Information Technology Sarbanes-Oxley Compliance
                                                                                                  Management Office and the U.S. Postal Service Office of Inspector General during the audit relating to compliance with
                                                                                                  expected Windows operating system configurations on in-scope servers. TID: April 2014

                                                                                            R-8 — Implement corrective actions as coordinated between the Information Technology Sarbanes-Oxley Compliance
                                                                                                  Management Office and the U.S. Postal Service Office of Inspector General during the audit relating to redesign of
Appendices




                                                                                                  the control over UNIX configurations to remove duplication and better reflect expectations for controls over financial
                                                                                                  reporting. TID: April 2014

                                                                                            R-9 — Implement corrective actions as coordinated between the Information Technology Sarbanes-Oxley Compliance
                                                                                                  Management Office and the U.S. Postal Service Office of Inspector General during the audit relating to alignment of the
                                                                                                  procedures and processes used to test and approve UNIX patches before implementation in the production environment.
                                                                                                  TID: April 2014




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                               Print                      26
                             Appendices                        Appendix E
Table of Contents
                                                                                            Report Title, Recommendation Summary
                                                                                            R = Recommendation number
                                                              Report Number   Issued Date   TID = Target Implementation Date
                                                              SM-MA-13-004    02/12/2013    Hybrid Mail Efforts

                                                                                            R-1 — Develop a business strategy to increase hybrid mail revenue for small- and medium-sized businesses if profitable and
                                                                                                  feasible (including transactional mail) and overcome privacy concerns. TID: None
                                                              SM-MA-13-002    03/15/2013    Trends and Systemic Issues in Defense Contract Audit Agency Audit Work for Fiscal Years 2009-2012

                                                                                            R-1 — Emphasize to contracting officials the importance of requesting Defense Contract Audit Agency audits of contractor
                                                                                                  accounting systems, significant equitable adjustment and termination claims, labor floor checks, and financial capability,
                                                                                                  where applicable, prior to contract award. TID: February 2014
                                                              MS-AR-13-005    03/18/2013    Residential Customer Service Experiences

                                                                                            R-1 — Update the residential Customer Experience Measurement survey to allow customers to provide more definitive location
                                                                                                  identifiers (for example, Post Office™ name, city, and ZIP Code) that relate to their experiences. TID: March 2014

                                                                                            R-2 — Develop a process to collect and analyze residential customer experience information from other access channels.
                                                                                                  TID: March 2014

                                                                                            R-3 — Develop a strategy to design and implement corrective actions in a more timely and responsive manner when poor
Office of Audit




                                                                                                  customer service experience scores are identified. TID: September 2014

                                                                                            R-4 — Ensure that mechanisms are developed and implemented to track residential customer experiences as key operational
                                                                                                  initiatives are taken to improve the Postal Service’s financial condition. TID: September 2014
                                                              DR-MA-13-001    03/21/2013    Lessons Learned From Retail Optimization Initiatives

                                                                                            R-1 — Process and approve or disapprove the remaining 600 Retail Access Optimization Initiative discontinuance proposals.
                                                                                                  TID: September 2014

                                                                                            R-3 — Develop and implement a formal post-implementation review that evaluates savings achieved and potential revenue loss
                                                                                                  associated with retail network realignments. TID: November 2014
                                                              NO-AR-13-001    03/21/2013    Washington Network Distribution Center – Postal Vehicle Service Operations

                                                                                            R-1 — Follow prescribed Postal Service standard operating procedures to the extent possible for live loading mail into trailers for
                                                                                                  immediate movement from the facility yard and consider the reduction of moves in future workload and staffing analyses.
                                                                                                  TID: March 2013
Office of Investigations




                                                                                            R-2 — Periodically assess Postal Vehicle Service truck driver workload and staffing requirements with respect to productivity
                                                                                                  standards to maintain appropriate staffing levels. TID: April 2013
                                                              NO-MA-13-005    04/04/2013    Supervisor Workhours and Span of Control

                                                                                            R-2 — Fill vacant supervisor positions up to the appropriate span of control level and reduce supervisor replacement workhours
                                                                                                  accordingly. TID: October 2013
                                                              DP-AR-13-004    04/23/2013    U.S. Postal Service Data Governance

                                                                                            R-1 — Direct the vice president, Information Technology, to implement a formal, enterprise-wide data governance program.
                                                                                                  TID: September 2014
                                                              MS-AR-13-007    04/29/2013    Domestic Negotiated Service Agreements

                                                                                            R-1 — Develop and implement standardized procedures for managing negotiated service agreements. The procedures should
                                                                                                  include requirements for validating data used by individuals for various internal and external reporting purposes.
                                                                                                  TID: October 2013

                                                                                            R-2 — Create a data retention policy and central repository for data archival. Specifically, the data should be retained throughout
                                                                                                  the life of the agreement and for a specified period after the agreement expires or is terminated. Historical data should
                                                                                                  include: The methodology used by the Postal Service to project a customer’s mail volume to determine discounts. A
                                                                                                  comparison of the mailer’s pre-agreement volumes with its annual volumes under the negotiated service agreement.
                                                                                                  Analyses of data from other mailers with similar negotiated service agreements. TID: October 2013
                                                              DR-MA-13-002    05/06/2013    U.S. Postal Service Parcel Delivery Lockers
Appendices




                                                                                            R-2 — Add revenue and cost reduction features to the pilot to maximize return-on-investment opportunities.
                                                                                                  TID: December 2014
                                                              DR-AR-13-004    05/24/2013    City Delivery Street Efficiency Southern, Pacific, and Western Areas

                                                                                            R-1 — Reduce 340,499 workhours in the five districts cited. TID: October 2014




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                              Print                    27
                             Appendices                        Appendix E
Table of Contents
                                                                                            Report Title, Recommendation Summary
                                                                                            R = Recommendation number
                                                              Report Number   Issued Date   TID = Target Implementation Date
                                                              DP-AR-13-008    06/19/2013    Delivering Results, Innovation, Value, and Efficiency Management

                                                                                            R-2 — Develop and implement a Postal Service-wide program management policy that identifies the best practices currently
                                                                                                  employed by the Postal Service, as well as differentiates between mandated and optional practices. This process should
                                                                                                  also take into consideration best practices, including those provided by the U.S. Postal Service Office of Inspector
                                                                                                  General. TID: September 2014
                                                              MS-AR-13-009    06/20/2013    Small Business Growth

                                                                                            R-3 — Establish a process for improving the availability and use of sales-related tools, market data, and training. The process
                                                                                                  should include providing postmasters additional training on selling Postal Service products and services, updating data in
                                                                                                  the Business Opportunity Tool Kit, and providing postmasters with product sales scripts and market data. TID: June 2014
                                                              HR-MA-13-003    07/12/2013    Postal Career Executive Service I Annual Leave

                                                                                            R-2 — Modify and test leave system controls to ensure U.S. Postal Inspection Service Postal Career Executive Service I equivalent
                                                                                                  employees’ annual leave amounts are calculated according to Postal Service policy, and communicate policy to applicable
                                                                                                  personnel. TID: January 2014
                                                              HR-AR-13-004    07/25/2013    Postal Service Injury Compensation Program
Office of Audit




                                                                                            R-1 — Conduct a formal staffing analysis to determine the number and type of employees needed to handle workers’
                                                                                                  compensation claims, including Health and Resource Management specialists, internal or contract nurses, specially
                                                                                                  trained or contract third-party recovery specialists, or other support personnel; and adjust staffing accordingly.
                                                                                                  TID: January 2014

                                                                                            R-4 — Complete the nationwide implementation of WebESP to provide a more efficient and effective process for identifying and
                                                                                                  assigning available work for injured employees. TID: March 2014

                                                                                            R-5 — Develop a simplified and standardized quick reference guide of key process steps to help district Health Resource
                                                                                                  Management staff effectively perform their duties. TID: December 2013

                                                                                            R-8 — Evaluate how predictive analytics can be used to support claims management activities and reduce costs. TID: None
                                                              IT-AR-13-006    07/31/2013    Management and Utilization of Software Licenses

                                                                                            R-4 — Require management to establish and maintain an enterprise-wide software inventory list and periodically scan
                                                                                                  workstations to identify unauthorized software products running on the Postal Service network. TID: April 2014
Office of Investigations




                                                              DR-MA-13-003    08/06/2013    Delivery Data Transmission

                                                                                            R-3 — Modify the Intelligent Mail Device Acquisition System report for delivery unit management to provide unit and route
                                                                                                  specific information on cell phone and Intelligent Mail Data Device scanner connectivity. TID: October 2013
                                                              MS-MA-13-004    08/14/2013    Benchmarking of Costing Methodologies

                                                                                            R-1 — Develop a formal process, in coordination with the chief information officer and chief operating officer, to strengthen
                                                                                                  the communication process between Finance, Operations, and users of the product costing system data regarding data
                                                                                                  needs and production. TID: July 2016

                                                                                            R-2 — Establish a long-term implementation plan, in coordination with the chief information officer and chief operating officer, to
                                                                                                  expand usage of system-generated data that includes a data transition roadmap. TID: July 2016

                                                                                            R-3 — Expand usage of currently available system-generated data from operations or data that can be available in the near term
                                                                                                  to enable the product costing system to rely more on operations data and less on special studies. TID: July 2016

                                                                                            R-4 — Evaluate the feasibility of performing cost and revenue analysis at the ZIP Code level or relevant regional areas to support
                                                                                                  development of customer-specific rates for those products for which such price distinctions are considered legal.
                                                                                                  TID: None
                                                              NO-AR-13-004    08/16/2013    New Castle and Greensburg, PA Consolidation

                                                                                            R-1 — Coordinate with the Facility Service Office when rental space is vacated to ensure management takes appropriate lease
                                                                                                  termination actions. TID: December 2014
                                                              NO-AR-13-006    08/26/2013    Springfield Network Distribution Center - Postal Vehicle Service Operations
Appendices




                                                                                            R-3 — Eliminate an additional 8,623 annual workhours associated with improving Postal Vehicle Service driver productivity to
                                                                                                  the standard of five moves per hour. TID: October 2014
                                                              SM-MA-13-006    09/18/2013    Postal Service Purchasing Policies’ Impact on Defective Pricing Fraud Cases

                                                                                            R-1 — Require suppliers to certify that cost or pricing data is accurate, complete, and current. TID: March 2014




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                            Print                      28
                             Appendices                        Appendix E
Table of Contents
                                                                                            Report Title, Recommendation Summary
                                                                                            R = Recommendation number
                                                              Report Number   Issued Date   TID = Target Implementation Date
                                                              IT-AR-13-007    09/24/2013    Engineering Systems and Network Operations Disaster Recovery Plan – Merrifield, VA Campus

                                                                                            R-1 — Establish, implement, and test a disaster recovery plan for Engineering Systems and Network Operations in Merrifield,
                                                                                                  VA, that is commensurate with the sensitivity of data, available resources, and level of risk for the applications and
                                                                                                  incorporates an appropriate alternative site located far enough away from the Merrifield campus that it will not be
                                                                                                  affected by the same disaster. TID: May 2014

                                                                                            R-2 — Timely complete or update, as appropriate, business impact or infrastructure impact assessments for all applications
                                                                                            	     supported by Engineering Systems. TID: May 2014
                                                              NO-AR-13-007    09/25/2013    Surface Visibility – Transportation Operations – Oklahoma District

                                                                                            R-5 — Verify and document the elimination or modification of 38 trips from highway contract routes in the Oklahoma District
                                                                                                  and eliminate 3,636 workhours from Postal Vehicle Service trip schedules assigned to the Tulsa Processing and
                                                                                                  Distribution Center, or document the reasons for retaining the workhours. TID: November 2013
                                                              SM-AR-13-004    09/25/2013    Noncompetitive Purchasing Practices

                                                                                            R-1 — Direct contracting officials to include and verify that sufficient information is in the contract file to support price and cost
Office of Audit




                                                                                                  analysis. TID: February 2014

                                                                                            R-2 — Reiterate policy that field personnel not approve suppliers to start work without authorization from the contracting officer.
                                                                                                  TID: February 2014

                                                                                            R-3 — Ensure contracting officials collaborate with the competition advocate and internal business partners requesting
                                                                                                  purchases to promote increased competition when awarding contracts. TID: February 2014
                                                              HR-MA-13-004    09/26/2013    Revenue Generation Patents

                                                                                            R-1 — Work closely with subject matter experts to review patents with revenue generation potential and draft claims as
                                                                                                  appropriate. TID: None
                                                              IT-AR-13-009    09/26/2013    LiteBlue Security Assessment

                                                                                            R-1 — Enhance access controls to all Postal Service employee self-service applications. TID: April 2014

                                                                                            R-3 — De-identify personally identifiable information on forms loaded into the employee self-service module of the electronic
                                                                                                  Official Personnel Folder application. TID: None
Office of Investigations




                                                                                            R-8 — Develop a method by which database administrators can obtain information on specific requirements and authorizations
                                                                                                  for each application to track authorized account settings and parameters. TID: None
                                                              NO-MA-13-007    09/26/2013    Assessment of Overall Plant Efficiency 2013

                                                                                            R-1 — Reduce 14,364,398 workhours by fiscal year 2018, with an associated economic impact of $628,670,104.
                                                                                                  TID: September 2018
                                                              FT-MA-13-022    09/27/2013    Using U.S. Postal Service-Specific Assumptions for Calculating the Retiree Health Care Liability

                                                                                            R-1 — Coordinate with the Office of Personnel Management to modify the future retiree healthcare liability calculation to use
                                                                                                  actuarial assumptions specific to the Postal Service. TID: None
                                                              FT-MA-13-023    09/27/2013    Using U.S. Postal Service-Specific Assumptions for Calculating the Civil Service Retirement System Liability

                                                                                            R-1 — Coordinate with the Office of Personnel Management to modify the future Civil Service Retirement System liability
                                                                                                  calculation to use actuarial assumptions specific to the Postal Service. TID: None
                                                              FT-MA-13-024    09/27/2013    Using U.S. Postal Service-Specific Assumptions for Calculating the Federal Employees Retirement System Liability

                                                                                            R-1 — Coordinate with the Office of Personnel Management to modify the future Federal Employees Retirement System
                                                                                                  liability calculation to use actuarial assumptions specific to the Postal Service and, based on the results, take action as
                                                                                                  appropriate. TID: None
                                                              MS-AR-13-012    09/27/2013    Electronic Parcel Payment Systems Internal Control Requirements

                                                                                            R-2 — Develop interim controls, such as establishing roles and responsibilities in the identification of shortpaid mailpieces,
                                                                                                  providing enhanced scanners to clerks and carriers, judgmentally sampling PC Postage parcels at sorting facilities and
Appendices




                                                                                                  delivery units, and increasing the accuracy of scales on mail processing equipment, to improve detection of shortpaid
                                                                                                  parcels until automated controls are in place. TID: June 2014

                                                                                            R-4 — Implement software changes to the Electronic Verification System in order to correctly validate destination entry rates
                                                                                                  claimed by mailers. TID: January 2015




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                                Print                     29
                             Appendices                        Appendix E
Table of Contents
                                                                                            Report Title, Recommendation Summary
                                                                                            R = Recommendation number
                                                              Report Number   Issued Date   TID = Target Implementation Date
                                                              NO-AR-13-008    09/27/2013    Nationwide Analysis of Tier 1 Network Distribution Centers – Postal Vehicle Service Operations

                                                                                            R-1 — Require the six Tier 1 Network Distribution Centers identified in the report conduct an assessment of driver workload
                                                                                                  and staffing and make appropriate adjustments to workhours based on compliance with yard move productivity
                                                                                                  standards. TID: January 2015

                                                                                            R-2 — Ensure Tier 1 Network Distribution Centers annually assess Postal Vehicle Service driver workload and staffing
                                                                                                  requirements. TID: January 2015
                                                              DR-AR-13-007    09/30/2013    Vehicle Maintenance Facility Efficiency Capital Metro and Pacific Areas

                                                                                            R-1 — Fill vacant mechanic and support staff positions to improve inefficiencies in operations. TID: January 2014

                                                                                            R-2 — Assess the reporting structure for VOMAs and require vehicle maintenance managers or designees to provide adequate
                                                                                                  oversight of VOMAs to ensure they perform their vehicle maintenance-related duties. TID: January 2014
                                                              HR-AR-13-009    09/30/2013    Emergency Preparedness for Hurricane Sandy

                                                                                            R-1 — Provide periodic training to responsible personnel to ensure they are aware of procedures for safeguarding employees
                                                                                                  during an emergency. TID: None
Office of Audit




                                                                                            R-2 — Clarify policies and procedures regarding employees reporting to postal facilities where mandatory evacuation orders
                                                                                                  have been issued. TID: March 2014

                                                                                            R-3 — Issue supplemental guidance for holding mail and moving mail and other assets from facilities located in mandatory
                                                                                                  evacuation areas. TID: March 2014

                                                                                            R-4 — Establish controls to ensure integrated emergency management plans are reviewed, approved, and updated at least
                                                                                                  annually. TID: December 2013

                                                                                            R-5 — Clarify which facilities are required to maintain complete, approved integrated emergency management plans and
                                                                                                  communicate that to appropriate personnel. TID: December 2013
                                                              NO-AR-13-009    09/30/2013    Timeliness of Mail Processing at the Hartford, CT Processing and Distribution Center

                                                                                            R-1 — Adjust planning and scheduling to accommodate mail volumes especially during holiday periods. TID: None
                                                              SM-AR-13-005    09/30/2013    Vacant Land Parcels
Office of Investigations




                                                                                            R-1 — Declare the land parcel located in Norman, OK as excess. TID: June 2014

                                                                                            R-3 — List the Elk River, MN; Norman, OK; and Islip, NY parcels for sale. TID: June 2014

                                                                                            R-4 — Evaluate the eight parcels in Kahului, HI; Cooper City, FL; Stuart, FL; Kihei, HI; Pahoa, HI; Incline Village, NV; Mendocino,
                                                                                                  CA; and Pinetop AZ and develop a strategy to sell the properties when market conditions improve. TID: None

                                                                                            R-5 — Evaluate the 10 additional parcels in Apache Junction, AZ; Central, AZ; Tehachapi, CA; Marengo, IN; Kokomo, IN; Hilton
                                                                                                  Head, SC; Garland, TX; Loiza, PR; Viequez, PR; and San Juan, PR to determine whether they are suitable for sale.
                                                                                                  TID: None
                                                              IT-AR-14-001    10/22/2013    South Florida District Vulnerability Assessment

                                                                                            R-3 — Develop a technical refresh plan for the engineering infrastructure that addresses obsolete Windows operating systems.
                                                                                                  TID: November 2013
                                                              NO-MA-14-001    10/30/2013    Voyager Card Program for Highway Contract Routes – Unidentified and Unrecovered Fuel Overpayments

                                                                                            R-1 — Immediately reconduct the 2009-2010 fuel year Voyager Card Program reconciliation under the pooling and
                                                                                                  reconciliation requirements of the Fuel Management Program and the current reconciliation methodology.
                                                                                                  TID: February 2014

                                                                                            R-2 — Validate and document the results of additional 2009-2010 fuel overpayment determinations and collect these
                                                                                                  overpayments. TID: April 2014
                                                              HR-MA-14-001    11/20/2013    Management of Equipment in Capitol Heights, MD
Appendices




                                                                                            R-1 — Establish procedures to comply with the revised mail transportation equipment policy when implemented.
                                                                                                  TID: December 2013
                                                              SM-AR-14-002    11/27/2013    Spending Trends for Maintaining Postal Service Facilities

                                                                                            R-1 — Develop a strategy to complete all repairs in order to adequately maintain Postal Service facilities. TID: March 2014

                                                                                            R-3 — Establish written procedures to ensure repair classifications are accurate each year and to reconcile prioritization
                                                                                                  lists yearly to identify incomplete repairs to carry forward. TID: January 2014



                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                            Print                      30
                             Appendices                        Appendix E
Table of Contents
                                                                                            Report Title, Recommendation Summary
                                                                                            R = Recommendation number
                                                              Report Number   Issued Date   TID = Target Implementation Date
                                                              IT-AR-14-002    12/02/2013    Controls Over the Premium Forwarding Service Point of Service Retail System

                                                                                            R-1 — Reiterate that retail unit personnel follow approved manual procedures surrounding the Premium Forwarding Service
                                                                                                  process and that Postal Service policies prohibit the business use of this service. TID: November 2013

                                                                                            R-2 — Implement automated controls in the Point-of-Service - Retail System or its successor to establish refund limitations for
                                                                                                  Premium Forwarding Service, ensure customers do not have an active forwarding order, validate service start and end
                                                                                                  dates, not allow start of service before payment, and ensure that service is between 2 and 52 weeks.
                                                                                                  TID: October 2015

                                                                                            R-3 — Enhance the Point-of-Service - Retail System or its successor to capture and store all required data for Premium
                                                                                                  Forwarding Service, including the customer’s name and proper primary address, first shipment date, last shipment
                                                                                                  date, service start date, service end date, Premium Forwarding Service number of weeks, and shipment total.
                                                                                                  TID: September 2014

                                                                                            R-4 — Incorporate into the Point-of-Service - Retail System or its successor the capability to tie all Premium Forwarding
                                                                                                  Service extensions and receipted refunds to the original sales transaction to ensure retail associates only disburse
                                                                                                  refunds for actual customer purchases, retail associates refund according to the original payment method, and the
Office of Audit




                                                                                                  system eliminates risks for unintentional and intentional keying input errors. TID: January 2015

                                                                                            R-5 — Enhance the Point-of-Service - Retail System or its successor to develop and implement exception reports that
                                                                                                  incorporate loss prevention, customer relationship management, and timely, exception-based or event-driven business
                                                                                                  intelligence analytics to monitor retail associate errors and customer retail transactions (purchases, refunds, and voids).
                                                                                                  TID: March 2014
                                                              HR-MA-14-002    12/03/2013    Mail Isolation Control and Tracking

                                                                                            R-1 — Designate overall responsibility for the coordination of mail isolation, control, and tracking procedures throughout the
                                                                                                  Postal Service. TID: April 2014

                                                                                            R-2 — Revise and implement formal procedures for mail isolation, control, and tracking, to include specific procedures and
                                                                                                  controls for using mail image information. TID: April 2014

                                                                                            R-3 — Ensure that mail isolation, control, and tracking procedures are formally reviewed and updated annually based on lessons
                                                                                                  learned, new developments, and insights. TID: April 2014
                                                              DR-MA-14-001    12/11/2013    Delivery Operations – Readiness for Package Growth Management Advisory Report
Office of Investigations




                                                                                            R-1 — Continue to test and implement dynamic routing to manage increased package growth on delivery routes.
                                                                                                  TID: December 2013

                                                                                            R-2 — Study package growth trends on delivery routes and modify cluster box unit package compartments as needed for
                                                                                                  additional delivery capacity. TID: None

                                                                                            R-3 — Use operational reports to proactively monitor and manage Carrier Package Pickup data to make adjustments as
                                                                                                  needed to improve operational efficiency. TID: None

                                                                                            R-4 — Implement a vehicle shelving system to accommodate package growth. TID: October 2014
                                                              DR-AR-14-001    12/13/2013    Rural Delivery Operations - Mail Count and timekeeping Processes

                                                                                            R-1 — Develop a strategy to fully automate the rural timekeeping process. TID: September 2014
                                                              SM-MA-14-002    12/18/2013    Procurement-Related Ethical Violations at Vehicle Maintenance Facilities

                                                                                            R-3 — Require vehicle maintenance facilities managers and supervisors involved with supplier selection or payment to
                                                                                                  complete annual ethics training focused on procurement and contracting practices. TID: April 2014

                                                                                            R-4 — Develop ethics training focused on procurement and contracting and make it available to vehicle maintenance facilities
                                                                                                  managers and supervisors involved with supplier selection or payment. TID: April 2014
Appendices




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                            Print                    31
                             Appendices                        Appendix E
Table of Contents
                                                                                            Report Title, Recommendation Summary
                                                                                            R = Recommendation number
                                                              Report Number   Issued Date   TID = Target Implementation Date
                                                              NO-AR-14-001    12/20/2013    Internal Controls and Transportation Associated With the Springfield, MA Mail Transport Equipment Service Center

                                                                                            R-1 — Establish adequate controls over contractor performance and ensure adequate resources for the quality assurance
                                                                                                  function for effective oversight and monitoring of contractor operations at the Springfield Mail Transport Equipment
                                                                                                  Service Center, including processing, invoicing, repairing, and handling of mail transport equipment. TID: April 2014

                                                                                            R-2 — Ensure the contractor at the Springfield Mail Transport Equipment Service Center provides adequate security and access
                                                                                                  control to the ground and trailer parking areas, which includes access control of inbound and outbound trailers at all
                                                                                                  times. TID: March 2014

                                                                                            R-3 — Ensure area and plant management monitor compliance with the established policies and procedures for mail transport
                                                                                                  equipment return handling procedures at processing facilities, for dispatch and proper use of over-the-road containers
                                                                                                  and proper storage, handling, and maintenance of shoring straps. TID: January 2014

                                                                                            R-4 — Reinforce the requirement that processing facilities conduct thorough inspections of mail transport equipment being
                                                                                                  sent to the Springfield Mail Transport Equipment Service Center to ensure it does not contain any mail and ensure any
                                                                                                  found mail at the center is picked up daily for further processing. TID: January 2014

                                                                                            R-5 — Reassess mail transport equipment standing orders and transportation schedules for all processing facilities as
Office of Audit




                                                                                                  necessary to ensure they are up-to-date and efficient given the operational changes and imbalance of mail transport
                                                                                                  equipment flow. TID: April 2014
                                                              HR-MA-14-003    01/27/2014    Security Risks in the Capital District

                                                                                            R-1 — Issue supplemental guidance clarifying roles and responsibilities for homeland security coordinators in assisting districts
                                                                                                   with anonymous mail follow-up testing and training. TID: October 2014

                                                                                            R-2 — Require responsible personnel to take anonymous mail training, including periodic refresher training, and incorporate
                                                                                                  simulations of the anonymous mail process. TID: February 2014

                                                                                            R-3 — Establish controls to ensure responsible personnel are held accountable for complying with anonymous mail
                                                                                                  requirements. TID: January 2014

                                                                                            R-4 — Implement anonymous mail program best practices used by the Nevada-Sierra District, including taking corrective
                                                                                                  actions for failed facilities. TID: March 2014

                                                                                            R-5 — Establish controls to ensure threat assessment team personnel complete the required workplace violence training,
Office of Investigations




                                                                                                  including periodic refresher training, to better understand their roles and responsibilities. TID: January 2014

                                                                                            R-6 — Establish controls to ensure responsible personnel complete the workplace violence self-audit tool annually, as required.
                                                                                                  TID: September 2014

                                                                                            R-7 — Establish controls to ensure the threat assessment team adheres to workplace violence policies and procedures.
                                                                                                  TID: January 2014
                                                              HR-MA-14-004    02/06/2014    Unscheduled Leave Activity in the Los Angeles District

                                                                                            R-1 — We recommend the manager, Los Angeles District: Develop and implement a clearly defined unscheduled leave activity
                                                                                                  review process for supervisors to follow that includes schedules for monitoring leave activity and employee discussions
                                                                                                  as it relates to unscheduled leave control. TID: February 2014

                                                                                            R-3 — We recommend the manager, Los Angeles District: Implement controls over Postal Service Forms 3971, Request for or
                                                                                                  Notification of Absence, to ensure proper completion and security. TID: February 2014
                                                              SM-AR-14-003    02/24/2014    Transportation Management Service Provider Shipping Process

                                                                                            R-1 — Develop and implement an alternative process to Freight Pro’s use of negative confirmation to ensure that all shipments
                                                                                                  are received and follow up on any exceptions identified. TID: July 2014

                                                                                            R-2 — Develop and implement detailed procedures to address the rate quote exceptions identified and pursue credits owed to
                                                                                                  the Postal Service. TID: July 2014
                                                              DR-AR-14-003    02/28/2014    Address Management System Data

                                                                                            R-1 — Revise and implement delivery policy to include specific time requirements for carrier edit book updates, submissions to
Appendices




                                                                                                  delivery supervisors, and error corrections in address systems. TID: October 2014

                                                                                            R-2 — Develop and implement a formal Address Management System training program. TID: January 2014

                                                                                            R-3 — Develop and incorporate an Address Management System module in the delivery supervisor’s training course.
                                                                                                  TID: September 2014

                                                                                            R-4 — Establish and sustain a follow-up process to correct address errors using the Address Quality Improvement Process
                                                                                                  reports and complete necessary street reviews. TID: October 2014


                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                          Print                      32
                             Appendices                        Appendix E
Table of Contents
                                                                                            Report Title, Recommendation Summary
                                                                                            R = Recommendation number
                                                              Report Number   Issued Date   TID = Target Implementation Date
                                                              DR-AR-14-004    03/04/2014    City Delivery Efficiency – South Florida District

                                                                                            R-1 — Implement efforts to eliminate 374,982 workhours at the delivery units cited. TID: None

                                                                                            R-2 — Reinforce and ensure adherence to Postal Service policies and procedures for supervising city delivery operations at
                                                                                                  delivery units. TID: June 2014

                                                                                            R-3 — Eliminate inefficient carrier practices, such as carriers waiting in line for accountable mail, excessive talking on cell
                                                                                                  phones during mail sorting, and visits to personal vehicles. TID: March 2014

                                                                                            R-4 — Increase mail arrival efficiency by preparing integrated operating plans with facility processing managers.
                                                                                                  TID: September 2014

                                                                                            R-5 — Use the Integrated Operating Plan Discrepancy Report System to monitor compliance and identify and correct systemic
                                                                                                  issues. TID: April 2014

                                                                                            R-6 — Ensure delivery point sequence mail arrives timely and in route order for easy retrieval by carriers. TID: April 2014
                                                              DP-AR-14-001    03/07/2014    U.S. Postal Service’s Delivering Results, Value, and Efficiency Initiative 6, Improve Employee Availability
Office of Audit




                                                                                            R-1 — Establish and implement a process to ensure that Delivering Results, Innovation, Value, and Efficiency project
                                                                                                  management roles, are clearly identified and not performed by the initiative lead and roadmap owner. TID: None

                                                                                            R-2 — Evaluate implementing regular audits and controls for each project at the project management level. TID: None
                                                              DP-AR-14-002    03/07/2014    Postal Service Knowledge Management Process

                                                                                            R-1 — Develop a comprehensive Postal Service knowledge management (KM) strategy and associated policies and
                                                                                                  procedures, including appointing a chief knowledge officer. This process should include and build on current Postal
                                                                                                  Service KM practices and the appropriate best practices identified in this report. TID: None

                                                                                            R-2 — Join the Federal Knowledge Management Working Group, an organization that has experts to assist, inform, and
                                                                                                  support the development and implementation of a comprehensive knowledge management strategy. TID: June 2014
                                                              DR-AR-14-005    03/26/2014    Vehicle Parts Inventory Management-Capping

                                                                                            R-1 — Re-emphasize stockroom management policies and procedures on physical security and inventory management,
                                                                                                  including conducting mandatory inventories at vehicle maintenance facilities. TID: April 2014
Office of Investigations




                                                                                            R-2 — Implement training for stockroom personnel on security and inventory procedures and processes. TID: June 2014

                                                                                            R-3 — Re-emphasize stockroom management policies and procedures on purchasing and receiving duties. TID: May 2014
                                                              IT-AR-14-003    03/26/2014    Fiscal Year 2013 Information Technology Internal Controls

                                                                                            R-1 — Reiterate to Surface-Air Management System administrators to follow control policies in managing critical jobs and
                                                                                                  script versions. TID: June 2014

                                                                                            R-2 — Implement a job scheduling procedure for the Surface-Air Management System that documents critical jobs.
                                                                                                  TID: June 2014

                                                                                            R-3 — Direct the Information Technology Compliance Management Office to require Postal Service internal reviewers to use the
                                                                                                  Control-M/Enterprise Manager tool to directly obtain evidence of password settings. TID: June 2014
                                                              IT-AR-14-004    03/27/2014    Information Storage Security

                                                                                            R-1 — Ensure Data Management Services management provides security operating procedures, periodic reviews, and
                                                                                                  oversight for the storage teams as required by Handbook AS-805, Information Security. TID: September 2014

                                                                                            R-2 — Ensure the vendor for the storage contract provides periodic training to personnel to maintain storage group knowledge
                                                                                                  and skills with vendor products and management tools. TID: April 2014

                                                                                            R-3 — Evaluate the storage environment managed by Data Management Services against Handbook AS-805, Information
                                                                                                  Security, security requirements and develop a schedule to bring the environment into compliance. TID: June 2014

                                                                                            R-4 — Establish minimum security requirements for storage devices in Postal Service environments based on industry best
Appendices




                                                                                                  practices. TID: September 2014
                                                              DR-MA-14-003    03/31/2014    Readiness for Package Growth – Customer Service Operations

                                                                                            R-1 — Direct Customer Service Operations employees to perform acceptance scans on all barcoded packages as required.
                                                                                                  TID: October 2014

                                                                                            R-2 — Enable the Passive Adaptive Scanning System’s revenue protection function, and document and communicate
                                                                                                  procedure changes to employees. TID: October 2014


                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                             Print                 33
                             Appendices                         Appendix F and Appendix G
Table of Contents
                                                              Appendix F
                                                              Significant Management Decisions in
                                                              Audit Resolution
                                                              For the period October 01, 2013 - March 31, 2014

                                                              As required by the IG Act, the following discusses information concerning any significant management decision with which the Inspector
                                                              General disagrees and is currently in audit resolution.

                                                              No Recommendations Found.



                                                              Appendix G
                                                              Status of Peer Review Recommendations
                                                              Federal audit organizations undergo an external quality control assessment by their peers every 3 years. The Dodd-Frank Wall Street Reform
Office of Audit




                                                              and Consumer Protection Act of 2010 requires an appendix reporting on 1) any Office of Inspector General peer reviews conducted during the
                                                              semiannual period; and 2) any outstanding recommendations from any previous or current peer reviews that remain outstanding or have not
                                                              been fully implemented.


                                                               Office of Audit
                                                               Internal Peer Reviews
                                                               None conducted during this period.

                                                               External Peer Reviews
                                                               None conducted during this period.

                                                               Office of Investigations
Office of Investigations




                                                               Internal Peer Reviews
                                                               None conducted during this period.

                                                               External Peer Reviews
                                                               None conducted during this period.
Appendices




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                 Print          34
                             Appendices                          Appendix H
Table of Contents
                                                              Appendix H
                                                              Investigative Statistics*
                                                              For the period October 1, 2013— March 31, 2014


                                                                                      Investigations                      Indictments/                             Admin                 Cost    Fines / Restitution,                        To Mgmt. for
                                                                                              Closed        Arrests        Information    Convictions**      Action Taken           Avoidance       and Recoveries      Amount to USPS***   Admin Action
                                                              Contract Fraud                      96              9                  5                7                 66        $75,366,586           $69,277,543            $2,685,625             34
                                                              Financial Fraud                    194             70                 51               79                200          $1,206,375           $1,733,512            $1,712,000            155
                                                              General Crimes                     315             31                 11               32                248                   —             $607,933              $169,660            170
                                                              Healthcare Fraud                   447             38                 46               37                 81       $168,945,990           $48,541,151           $10,589,100             93
                                                              Internal Mail Theft                646            175                112              211                493                   —           $1,776,661              $100,969            407
                                                              Total                            1,698            323                225             366               1,088       $245,518,951         $121,936,800            $15,257,354            859
Office of Audit




                                                              * Statistics include joint investigations with other law enforcement agencies.
                                                              ** Convictions reported in this period may be related to arrests in prior reporting periods.
                                                              *** Amounts include case results of joint investigations with other OIG, federal, state, and local law enforcement entities.
Office of Investigations
Appendices




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                                   Print                                         35
                             Appendices                          Appendix I
Table of Contents
                                                              Appendix I
                                                              Summary of U.S. Postal Inspection Service Actions Under 39 USC § 3005 and 3007
                                                              For the period October 1, 2013 — March 31, 2014



                                                                                                             Complaints      Consent             Cease &     Financial Reporting on Investigative
                                                              Type of Scheme                                      Filed   Agreements   FROs Desist Orders    Activities for the Postal Inspection Service
                                                              Advanced Fee                                           —            —      —              —
                                                                                                                                                             Type
                                                              Charity                                                —            —      —              —
                                                                                                                                                             Total Personnel Comp             $171,374,578
                                                              Counterfeit Financial Instruments                       6            6     —               5
                                                                                                                                                             Total Nonpersonnel Expense        $34,677,708
                                                              Coupon/Rebate Fraud                                     1            1     —               1
                                                                                                                                                             Total Operating Expense         $206,052,286
                                                              False Billings                                          2            3      2              4
                                                                                                                                                             Total Capital Commitments          $1,022,596
                                                              Fraudulent Postage                                      7           13     —               7
                                                              Identity Theft                                         —            —      —              —
Office of Audit




                                                              Medical Product Fraud                                  —            —      —              —
                                                              Merchandise: Failure to Furnish                         2            2     —               2
                                                              Merchandise: Failure to Pay                             3           —       1             —
                                                              Misrepresentation                                      —            —      —              —
                                                              Other                                                  —            —      —              —
                                                              Reshipping Scheme                                      31           27     —              28
                                                              Sweepstakes/Lottery                                    57           56      3             58
                                                              Work at Home                                            5            6     —               4
                                                              TOTAL                                                 114          114      6            109

                                                              Other Administrative Actions
                                                              Administrative Action Requests                                                     114
Office of Investigations




                                                              Temp. Restraining Orders Requested                                                  —
                                                              Temp. Restraining Orders Issued                                                     —
                                                              Cases Using Direct Purchase Authority                                               —
                                                              Civil Penalties (Section 3012) Imposed                                              —
                                                              Test Purchases                                                                      —
                                                              Withholding Mail Orders issued                                                       8
                                                              Voluntary Discontinuances                                                           —



                                                              Administrative Subpoenas Requested by the Postal Inspection Service
                                                              There was one request during the reporting period.
Appendices




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                     Print                                        36
                             Appendices                          Appendix J
Table of Contents
                                                              Appendix J
                                                              All Closed Congressional/ PMG/BOG Inquires
                                                              For the period October 1, 2013— March 31, 2014

                                                              This appendix lists the congressional, Postmaster General, and Board of Governors inquiries the OIG closed during this reporting period. OIG units reviewed or
                                                              investigated these inquiries to resolve allegations and disputes, and to help identify systemic issues. Inquires are listed in the chronological order of receipt.

                                                               Inspector General Investigations (53)
                                                               Requestor                   Allegation/ Concern                                                                   Major Findings                                                                    Closure Date
                                                               Foreign Consulate General   Nondelivery of 16 mail pieces containing visas and passports delivered to the         OIG investigators had no access to consular personnel who witnessed this              10/30/13
                                                                                           Consulate General on a single day in 2012                                             delivery. We learned incidents of missing mail were well known within the
                                                                                                                                                                                 postal delivery unit on days the receptionist signed for the mail. We are
                                                                                                                                                                                 not aware of complaints about compromised personal information. We
                                                                                                                                                                                 noted postal employees deviated from delivery procedures for handling
                                                                                                                                                                                 items requiring verification and physical count; neither the letter carrier
                                                                                                                                                                                 nor consular personnel verified and counted the items. We reported our
Office of Audit




                                                                                                                                                                                 findings to postal management for action deemed appropriate.
                                                               Senator, Nevada             Inquiry regarding the closure of a Contract Post Office                               Our investigation found numerous violations of postal policy and law,                  11/01/13
                                                                                                                                                                                 commonly referred to as money order kiting. We reported our findings to
                                                                                                                                                                                 postal management for their consideration. Because of the nature of our
                                                                                                                                                                                 findings, we were required also to present them to the U.S. Attorney. That
                                                                                                                                                                                 office served a Central Violations Bureau ticket on the former contract post
                                                                                                                                                                                 office operator for violation of a federal law.
                                                               Representative, Nevada      Requesting information regarding the status of a Post Office after an investigation   Our investigation found numerous violations of postal policy and law,                  11/01/13
                                                                                                                                                                                 commonly referred to as money order kiting. We reported our findings to
                                                                                                                                                                                 postal management for their consideration. Because of the nature of our
                                                                                                                                                                                 findings, we were required also to present them to the U.S. Attorney. That
                                                                                                                                                                                 office served a Central Violations Bureau ticket on the former contract post
                                                                                                                                                                                 office operator for violation of a federal law.
                                                               Senator, Nevada             A former Postal Service employee requested an update on pending payments              Our investigation found numerous violations of postal policy and law,                  11/01/13
                                                                                           charges against her                                                                   commonly referred to as money order kiting. During a three-and-a-half
Office of Investigations




                                                                                                                                                                                 month period, 73 Postal Service money orders were issued. Of these,
                                                                                                                                                                                 approximately 45 were deposited into a Bank of First Deposit on or
                                                                                                                                                                                 before the date the employee reported them sold. The employee’s name
                                                                                                                                                                                 appeared on 48 of the 73 money orders. In four cases, the deposit
                                                                                                                                                                                 occurred 17 or more days before they were reported sold. We reported
                                                                                                                                                                                 our findings to postal management for their consideration. Because of
                                                                                                                                                                                 the nature of our findings, we were required also to present them to the
                                                                                                                                                                                 U.S. Attorney. That office served a Central Violations Bureau ticket on the
                                                                                                                                                                                 former contract post office operator for violation of a federal law.
                                                               Representative, New York    Management instructed carriers to falsify Express parcel delivery time scans;         Mail integrity tests twice found Express parcels scanned as delivered while           02/26/14
                                                                                           denied the complainant her right to participate in the Leave-Buy-Back Process; and    the parcels were still at the station. These instances involved a single letter
                                                                                           created a hostile work environment                                                    carrier. Management claimed to be unaware of the situation. More than
                                                                                                                                                                                 one interviewee corroborated the constituent’s claim of false scanning
                                                                                                                                                                                 practices. We forwarded our findings to District management. The issue
                                                                                                                                                                                 regarding Leave Buy-Back is technical in nature and was forwarded to
                                                                                                                                                                                 Postal Service personnel. Our interviews confirmed tension between
                                                                                                                                                                                 the complainant and postal management, but we did not establish that
                                                                                                                                                                                 a hostile work environment existed. We did not confirm tension led to
                                                                                                                                                                                 unfounded personnel actions.
                                                               Senator, Maryland           Theft of care packages to military addresses, routine misdelivery of mail,            Regarding the routine misdeliveries, we found fading address labels on                 11/25/13
                                                                                           nondelivery, and tampering by postal employees                                        the delivery cluster box to be the likely cause. We could not determine
                                                                                                                                                                                 the location of the missing military addressed packages. As to the
                                                                                                                                                                                 non-delivered package, scan information indicated it was scanned as
                                                                                                                                                                                 delivered while inside a postal facility, which would violate postal policy.
Appendices




                                                                                                                                                                                 Our investigative efforts did not substantiate theft by postal personnel. In
                                                                                                                                                                                 response to our findings, management conducted a stand-up talk with
                                                                                                                                                                                 employees about professional behavior.
                                                               Senator, Tennessee          Theft of mail containing cash and gift cards sent to a Georgia address                We were unable to confirm the loss. The constituent previously claimed                 01/07/14
                                                                                                                                                                                 theft of a missing gift card, but without any identifying information, we
                                                                                                                                                                                 could not conduct a full investigation. We checked our databases and did
                                                                                                                                                                                 not identify a significant number of complaints at the point of origin or at
                                                                                                                                                                                 the destination to suggest a pattern. We ran four mail integrity tests and all
                                                                                                                                                                                 pieces arrived in tact.

                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                                                              Print                                     37
                             Appendices                         Appendix J
Table of Contents
                                                              Requestor                    Allegation/ Concern                                                         Major Findings                                                                             Closure Date
                                                              Representative, New York     Tampering and nonreceipt of mail                                            We found that a medical office and a gift card reseller intentionally used tape to
                                                                                                                                                                       seal envelopes they mailed. Investigators observed an instance of an unsealed letter
                                                                                                                                                                       awaiting delivery, but could find no indications of tampering nor explanation for the
                                                                                                                                                                       unsealed condition. We ran mail integrity tests, and all test pieces arrived in tact.
                                                                                                                                                                       Neither the tests nor database reviews produced investigative leads nor means for
                                                                                                                                                                       accounting for the problem.
                                                              Senator, Illinois            Theft of five parcels from two different locations, containing cash,        We conducted a lengthy investigation, including interviews, reviews of postal records           12/19/13
                                                                                           credit card, and check donations                                            and databases, surveillance, and mail integrity tests. Despite these efforts, we could
                                                                                                                                                                       not substantiate the loss. We found no evidence of theft nor that the package broke
                                                                                                                                                                       apart at the plant, and observed that mail handlers at the likely point of loss were
                                                                                                                                                                       familiar with and complied with postal policies.
                                                              Senator, Maryland            Theft of mail containing gift cards worth $400                              We conducted an investigation, including database reviews, interviews, mail integrity          10/23/13
                                                                                                                                                                       tests, and an examination of the refiled mail pieces. The retailer reviewed its systems
                                                                                                                                                                       and determined that prior to and after the cards were deactivated, there was no record
                                                                                                                                                                       of attempted use for the cards. The investigation produced no leads or means of
                                                                                                                                                                       accounting for the loss.
                                                              Representative, New York     Nondelivery of passports sent using Registered Mail with Signature          We conducted an investigation, including interviews, reviews of postal and criminal             01/17/14
                                                                                           Confirmation and scanned as “out for delivery”                              databases, and cooperation with the U.S. Department of State. The addressee was no
Office of Audit




                                                                                                                                                                       longer in operation. We identified sources who had knowledge of operations there. We
                                                                                                                                                                       learned passports were not always secured; offices were not alarmed; and access was
                                                                                                                                                                       not strictly controlled. We also learned that State Department investigators were aware
                                                                                                                                                                       of passport losses associated with this organization. However, our work did not find
                                                                                                                                                                       records of the package or leads to allow us to investigate further.
                                                              Representative, California   Falsely scanned packages as “Notice left (business closed)” at a            Regarding a package complainant sent that was scanned in Florida as “notice left,              10/30/13
                                                                                           business address in Florida, and packages not scanned at all                business closed,” local Post Office management readily confirmed the routine entry
                                                                                                                                                                       of scans on packages indicating a business is closed when they could not know that
                                                                                                                                                                       for a fact. Management defended the practice. Since this practice does not conform
                                                                                                                                                                       to postal policy, we notified district management for appropriate action and also
                                                                                                                                                                       copied our Office of Audit for consideration of management’s ideas on improving
                                                                                                                                                                       the scan notifications. Regarding the complainant’s package that received no scan,
                                                                                                                                                                       the allegation is unfounded. All information was record in the postal Track & Confirm
                                                                                                                                                                       database.
                                                              Representative, New          Theft of Certified Mail containing cash sent to Florida                     We conducted an investigation, including review of databases, interviews, and mail              11/19/13
                                                              Jersey                                                                                                   integrity tests. We did not identify any patterns in the postal zone nor any evidence of
Office of Investigations




                                                                                                                                                                       employee misconduct. Neither postal personnel, data, and our searches could establish
                                                                                                                                                                       the whereabouts of the missing letter.
                                                              Senator, New Hampshire       Intentional delay and theft of credit card statements, bills, and mail by   We conducted an investigation including database searches and interviews. We could              11/01/13
                                                                                           local postal employees                                                      not confirm the reported losses or any intentional delay or theft of mail.
                                                              Representative, Ohio         Nonreceipt of packages containing controlled, prescription medications      We conducted an investigation, including interviews, integrity testing, and reviews             01/07/14
                                                                                           from the Department of Veterans Affairs (VA)                                of postal databases. The complaint led to similar reports of intermittent missing VA
                                                                                                                                                                       shipments in the area. The investigation confirmed there is a problem, but did not lead
                                                                                                                                                                       to a suspect or other explanation for the loss.
                                                              Senator, Florida             Threats and drug possession and sales by another postal employee,           The complainant discounted or recanted his allegations. Independent of our interview            10/24/13
                                                                                           and administrative issues                                                   with him, we found no evidence of criminal or administrative wrongdoing.
                                                              Representative,              Package a seller sent to a third party arrived damaged; the Postal          The third party placed the damaged mail into our custody. Our agents observed the               11/25/13
                                                              Pennsylvania                 Service denied the insurance claim                                          damage and guided the claim, which was adjudicated favorably. The investigation
                                                                                                                                                                       discovered no employee misconduct, nor criminal behavior.
                                                              Representative, Texas        Employee mistakenly sought a reward for providing information to the        Our investigation found no documentation or evidence that the constituent assisted              12/12/13
                                                                                           Postal Inspection Service but OIG actually conducted investigation          any postal agency by providing information for the investigation in question. The OIG
                                                                                                                                                                       offers rewards only under extremely restricted circumstances involving undercover
                                                                                                                                                                       operations, usually including substantial risk. OIG rewards to postal employees are
                                                                                                                                                                       limited because of their duties to report misconduct. We are grateful for all contacts
                                                                                                                                                                       we receive each year, many from employees, that assist us in our mission to detect
                                                                                                                                                                       employee misconduct.
                                                              Representative, California   Theft of coupons and problems with the local customer service               We did not find evidence that postal personnel had improperly tampered with                    10/23/13
Appendices




                                                                                                                                                                       complainant’s mail, but personnel compounded the problem by attempting to replace
                                                                                                                                                                       her mail with a set of undeliverable coupons found at the Post Office. We heard from
                                                                                                                                                                       the constituent that recent delivery experiences improved. We tested customer service
                                                                                                                                                                       phone system operations and believe phone problems were resolved.




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                                                               Print                                   38
                             Appendices                         Appendix J
Table of Contents
                                                              Requestor                    Allegation/ Concern                                                            Major Findings                                                                                 Closure Date
                                                              State Representative,        Nondelivery of political mail                                                  We determined 2,170 of about 8,000 letters were returned to the sender and labeled
                                                              Massachusetts                                                                                               as undeliverable. A substantial portion of those were not canceled, suggesting they had
                                                                                                                                                                          not been sent through a mail processing machine. Management concluded the mail
                                                                                                                                                                          was mishandled at the Incoming Mail Center by being placed with mail to be sent to
                                                                                                                                                                          the Central Forwarding System. It should have been sent to a General Mail Facility. Our
                                                                                                                                                                          investigation did not determine why the mishandling occurred.
                                                              Representative, Missouri     Nondelivery or theft of multiple bill payments, refusal by letter carrier to   We did not substantiate the allegation of nondelivery or theft of bill payments.                    01/07/14
                                                                                           pick up outgoing mail, and poor service by the local post office               We also ran mail integrity tests and reviewed postal databases looking for similarities.
                                                                                                                                                                          We identified no significant issues in the delivery area. We learned the stoppage of mail
                                                                                                                                                                          pick-up was not authorized, and management corrected it. In regards to poor service,
                                                                                                                                                                          information from databases and surveys did not support the claim.
                                                              Representative, Georgia      Delay and theft of cash and heavy industrial materials from a package          We reviewed tracking information for the path the package traveled. We contacted four              02/27/14
                                                                                                                                                                          processing and distribution plants as well as the Mail Recovery Center. We launched mail
                                                                                                                                                                          integrity tests in an attempt to narrow down the location of the loss. However, neither
                                                                                                                                                                          the missing items nor any additional information regarding their whereabouts were
                                                                                                                                                                          discovered.
                                                              Representative, California   Misdelivered mail, customer service issues, and mail tampering                 We conducted an investigation but our mail integrity tests were generally successful and            11/15/13
                                                                                                                                                                          database searches did not yield similar complaints in the area. We found no information or
Office of Audit




                                                                                                                                                                          evidence to support the claim that named or unnamed postal
                                                                                                                                                                          employees had tampered with the mail or behaved inappropriately when delivered.
                                                                                                                                                                          The complainant has since reported increased satisfaction with her service.
                                                              Representative, California   Nonreceipt of a parcel after being notified it was ready for pick-up           We conducted an investigation, including interviews, integrity tests, and reviews of postal         12/19/13
                                                                                                                                                                          and UPS databases. We concluded that the address on the UPS parcel omitted the PO
                                                                                                                                                                          Box number. In such situations, postal employees must return packages to UPS, but
                                                                                                                                                                          neither the Postal Service nor UPS had documentation of that occurring, or how else the
                                                                                                                                                                          package might have been lost. We found no indications of improper handling of packages.
                                                              Representative, Ohio         Nonreceipt of mail containing checks valued up to $1 million                   We conducted an investigation, including mail integrity tests, interviews, and database            10/23/13
                                                                                                                                                                          reviews. We could not identify the cause of the delay or the sudden appearance of a
                                                                                                                                                                          bundle of checks postmarked from a month earlier. We provided information to our Office
                                                                                                                                                                          of Audit for possible systemic review.
                                                              Senator, Nevada              Workhours were cut back because of employee’s disabled veteran                 We determined that management disallowed his light duty job offer after not completing              11/19/13
                                                                                           status                                                                         his light duty assignment within established timeframes. The matter was resolved through
                                                                                                                                                                          the grievance process, including a settlement for back pay. A doctor later cleared him to
Office of Investigations




                                                                                                                                                                          return to work. Complainant rescinded the allegation of being targeted because of the
                                                                                                                                                                          disabled veteran status.
                                                              Board of Governors           Nondelivery of mail                                                            We conducted an investigation, including mail integrity tests, interviews, and a review             11/08/13
                                                                                                                                                                          of databases. The complainant refused to participate in an interview. We performed
                                                                                                                                                                          three successful mail integrity tests. We found no evidence of intentional nondelivery or
                                                                                                                                                                          misconduct by a postal employee.
                                                              Representative, Maryland     Theft of $900 cash sent through the mail                                       We found the delivery location uses a “drop house” system, where a front desk worker               03/21/14
                                                                                                                                                                          accepts the mail, sorts it, and places it in mailboxes, which sit behind the front desk. The
                                                                                                                                                                          staff does not secure the mail and does not monitor the area with security cameras. When
                                                                                                                                                                          delivered to an employee, mail leaves the custody of the Postal Service and the jurisdiction
                                                                                                                                                                          of our agency. We found no evidence of misconduct by postal employees and no pattern
                                                                                                                                                                          of similar allegations in postal databases.
                                                              Senator, Maine               Wrongful termination and demand for back pay                                   During a background investigation of new employees, the complainant’s open felony                   12/16/13
                                                                                                                                                                          arrest warrant in another state came to light. We assisted him in contacting authorities,
                                                                                                                                                                          who eventually provided information for his use in a grievance action to maintain his
                                                                                                                                                                          job. Through the grievance process, he was ordered to be returned to work.
                                                              Representative, North        Nonreceipt and theft of prescription medication sent through the mail          We conducted an investigation, including interviews and reviews of postal databases. The            01/17/14
                                                              Carolina                                                                                                    investigation did not find evidence of theft by a postal employee nor any similar complaints
                                                                                                                                                                          in the postal area. We later learned that the supplier replaced the lost medication.
                                                              Representative, Nevada       Theft of a package containing a watch                                          We determined a letter carrier did not follow mail delivery procedures and falsified records        11/19/13
                                                                                                                                                                          for the missing parcel. Likely the item was improperly delivered to another address and
                                                                                                                                                                          delivery initials from another address entered into the file. We found no leads that would
Appendices




                                                                                                                                                                          allow us to trace the watch or a pattern of similar events in the area, and reported the
                                                                                                                                                                          findings to management for action deemed appropriate.
                                                              Representative, Arkansas     OIG employees accessed investigative resources to obtain text                  We conducted an internal investigation. Our forensic examination produced no evidence              02/28/14
                                                                                           messages for unofficial matters                                                the subjects used subpoenas, phone or database search tools to improperly access data.
                                                              Representative, Missouri     Customer complaint that letter carriers were opening and retaping mail         Postal databases and mail integrity tests yielded no leads. Local postal management did            02/26/14
                                                                                                                                                                          not suspect employees were opening mail and processing or irregularities in other mail
                                                                                                                                                                          may have been the cause.



                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                                                                  Print                                       39
                             Appendices                         Appendix J
Table of Contents
                                                              Requestor                    Allegation/ Concern                                                       Major Findings                                                                              Closure Date
                                                              Senator, Delaware            Harassment and hostile work environment                                   We initiated a workplace climate review. We conducted interviews, performed                     02/10/14
                                                                                                                                                                     postal database searches, and reviewed documents. We documented that district
                                                                                                                                                                     management was aware of concerns and responded promptly. Management promptly
                                                                                                                                                                     initiated a formal workplace climate review and site visit in early 2013. The OIG review
                                                                                                                                                                     did not support the claims of harassment or a hostile work environment.
                                                              Representative, Mississippi Parcel arrived with an outer seal broken                                   The complainant refused to be interviewed. Without her cooperation, we attempted to             02/26/14
                                                                                                                                                                     gain other leads by reviewing tracking information and looking for similar complaints in
                                                                                                                                                                     the area. We found no other leads to continue the investigation.
                                                              Representative, Kentucky     Misdelivery and non-receipt of mail, especially bills                     Complainant reported no recent problems, and our mail integrity tests revealed no                01/07/14
                                                                                                                                                                     weaknesses. Database searches revealed no patterns of delivery issues demanding
                                                                                                                                                                     investigative attention.
                                                              Representative, California   Workplace retaliation from a whistleblower complaint and agent            Complainant provided no evidence of a protected communication, as required for                   12/18/13
                                                                                           misconduct during the investigation                                       a finding of whistleblower retaliation. Information from postal files and interviews
                                                                                                                                                                     indicated a basis for management deciding to discipline the complainant. The
                                                                                                                                                                     misconduct matter is a personnel matter, to be reviewed through field office processes.
                                                              Representative, Florida      Willful delay of mail by a mail carrier                                   We found a basis in postal rules for the steps they took in suspending mail delivery.            12/12/13
                                                                                                                                                                     We documented a verbal altercation that occurred at the residence was a proper basis
Office of Audit




                                                                                                                                                                     for suspension, i.e., suspending delivery in the face of an immediate perceived threat,
                                                                                                                                                                     including threats from animals.
                                                              Senator, Maryland            A postal employee, receiving workers’ compensation benefits, alleged      An on-going investigation revealed the complainant made false statements and                    02/04/14
                                                                                           being prevented from returning to work after receiving a doctor’s         misrepresentations to medical providers and Department of Labor Office of Workers’
                                                                                           approval                                                                  Compensation Programs. Postal management delayed responding to the request to
                                                                                                                                                                     returning to work because of the ongoing investigation. We arrested the claimant for
                                                                                                                                                                     False Statements to Obtain Federal Employee’s Compensation, False Statements, and
                                                                                                                                                                     Aiding and Abetting.
                                                              Representative, Nevada       Theft of dimes sent in envelopes                                          An interview with the March of Dimes did not reveal pattern of complaints that would             01/31/14
                                                                                                                                                                     warrant further investigation, and the organization declined mail integrity tests.
                                                                                                                                                                     Processing and Distribution Center management was aware of situations where
                                                                                                                                                                     envelopes containing coins have been damaged in processing at the plant in the
                                                                                                                                                                     past. Management did not think theft was likely in this case and was not aware of any
                                                                                                                                                                     suspicious employee behavior that would warrant further investigation.
                                                              Representative,              Theft of a package containing silver, valued at $2,500.                   Well before we received the inquiry, local postal managers had already conducted their           11/19/13
                                                              Pennsylvania                                                                                           own investigation into the matter and had taken disciplinary steps.
Office of Investigations




                                                              Representative, Missouri     Nondelivery and issues regarding insurance                                Management provided inconsistent assertions of delivery to an apartment mailbox. We             02/10/14
                                                                                                                                                                     searched postal databases and conducted interviews and mail integrity tests. These
                                                                                                                                                                     efforts yielded no leads, and the Postal Service paid the constituent’s insurance claim.
                                                              Chairman, House              Review of a whistleblower complaint                                       The OIG conducted an investigation into a valid, unrelated charge involving travel card          11/01/13
                                                              Committee                                                                                              irregularities. We forwarded our findings to management for possible disciplinary action.
                                                              Representative, Minnesota    Nondelivery of a check mailed to Australia resulted in a $6,000 loss      The investigation determined the Postal Service lost the constituent’s International            03/21/14
                                                                                           from decline in exchange rates                                            Registered Mail piece. Postal searches of numerous locations tracking databases did
                                                                                                                                                                     not locate the item. Postal personnel could not explain data showing an item bearing
                                                                                                                                                                     the same number as dispatched to Vienna, Austria, 5 months later. We documented
                                                                                                                                                                     the International Claims Processing Office did not promptly assist the complainant.
                                                              Representative, New          Missing prescription medications scanned as delivered during a Mail       We confirmed the package was delivered during the Mail Hold. A substitute carrier was           03/21/14
                                                              Jersey                       Hold                                                                      not informed of the Mail Hold and left the package on the front porch. We could not
                                                                                                                                                                     establish when or how the parcel disappeared from the porch.
                                                              Representative, New York     Theft of scrap gold worth approximately $18,000, and issues with          We did not substantiate employee misconduct. We could not determine where the                   03/21/14
                                                                                           associated insurance claim                                                loss occurred, due in part to the passage of time and how the loss was reported. We
                                                                                                                                                                     noted the recipient did not promptly process the package, waited three weeks to report
                                                                                                                                                                     the gold was missing, and did not retain packaging that would have been of use to
                                                                                                                                                                     investigators. The OIG does not review insurance matters.
                                                              Senator, Maryland            Non-receipt, damage, and inexplicable “return to sender” processing       We learned a carrier may have mistakenly thought the residence was one of several               03/05/14
                                                                                           of several pieces of mail                                                 vacant addresses with no forwarding address.
                                                              Senator, Maryland            Theft of package contents and failure of the online mail hold system to   Our investigation did not find evidence of mail theft by a postal employee, but the mail        02/10/14
Appendices




                                                                                           record requests                                                           was labeled as damaged. Contents of damaged mail sometimes are forwarded to Mail
                                                                                                                                                                     Recovery Centers (MRC). Because of the length of time passed, the MRC would no
                                                                                                                                                                     longer have any contents that might have been forwarded. We determined the cause
                                                                                                                                                                     for failure to hold the online mail request was human error, not a larger problem with
                                                                                                                                                                     the electronic system. Local postal personnel were required to retrieve hold requests
                                                                                                                                                                     from a database and, for some undetermined period of time, failed to do so.




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                                                             Print                                    40
                             Appendices                         Appendix J
Table of Contents
                                                              Requestor                  Allegation/ Concern                                                       Major Findings                                                                                       Closure Date
                                                              Senator, Maryland          Non-receipt, damage, and inexplicable “return to sender” processing       We learned a carrier may have mistakenly thought the residence was one of several vacant                 03/05/14
                                                                                         of several pieces of mail                                                 addresses with no forwarding address.
                                                              Representative, Michigan   An OIG agent improperly interfered with a former employee’s attempts      We found no evidence to substantiate the claims of misconduct or interference by the OIG                 03/21/14
                                                                                         to be rehired                                                             agent.
                                                              Representative, New York   Status report on a whistleblower complaint, followed by a request to      We closed our investigative work, noting the issues had been the subject of mediation.                   02/03/14
                                                                                         withdraw the employee’s complaint
                                                              Representative, Florida    Manipulation of mail tracking system to commit theft                      Postal data indicate the package was undeliverable as addressed and contents were all                    03/21/14
                                                                                                                                                                   returned to sender. We did not find employee misconduct.
                                                              Representative, Texas      Employee unfairly placed on administrative leave for misconduct           The OIG is following its internal procedures and regulations for handling disciplinary action.           02/10/14
                                                                                                                                                                   Employee is on paid administrative leave pending a decision and is represented by counsel.


                                                              Inspector General Audit Reports (5)
                                                              Requestor                  Allegation/Concern                                                        Major Findings/Resolution                                                                            Closure Date
                                                              Senator, Indiana           Constituents question the propriety of the Postal Service contract with   The Office of Audit announced a survey to assess the Postal Service’s internal controls over its          12/27/13
                                                                                         CB Richard Ellis                                                          transactions with CB Richard Ellis. The audit noted concerns regarding contract structure and
Office of Audit




                                                                                                                                                                   oversight.
                                                              Ranking Members, Senate    Periodic request for information on non-public, investigated cases        We presented information covering FY 13.                                                                  01/15/14
                                                              Committees
                                                              Chair, Senate Committee    Requested an information on service standards and plant                   We provided information on a final rule issued in January 2014 and a list of consolidations               02/12/14
                                                                                         consolidations                                                            made in 2013.
                                                              Chairman, House            Testimony Request for the hearing, “Alaska Bypass: A Broken System”       We provided the requested testimony.                                                                     03/04/14
                                                              Subcommittee
                                                              Representative, Maine      Safety of Postal Service vehicles in inclement weather                    We declined to conduct formal audit; we noted design and record of the Long Life Vehicles                03/20/14
                                                                                                                                                                   (LLVs), operating for the last 25 years, concluding this did not concern a system-wide complaint.


                                                              Risk Analysis Research Center Reports (2)
                                                              Requestor                  Allegation/Concern                                                        Major Findings/Resolution                                                                            Closure Date
Office of Investigations




                                                              Chairman, Senate           Requested responses for the committee hearing on “Outside the Box:        We provided the requested responses.                                                                      11/22/13
                                                              Committee                  Reforming and Renewing the Postal Service, Part 1 - Maintaining
                                                                                         Services, Reducing Costs, and Increasing Revenue through Innovation
                                                                                         and Modernization.”
                                                              Ranking Member, Senate     Committee on Homeland Security and Government Affairs requests a          We agreed to an extension.                                                                               02/25/14
                                                              Committee                  continuation of a detail assignment.


                                                              General Counsel and Support Functions (3)
                                                              Requestor                  Allegation/Concern                                                        Major Findings/Resolution                                                                            Closure Date
                                                              Representative,            A manager’s alleged threat caused post-traumatic stress disorder,         We closed our original investigation in 2010. Our investigation earlier in 2013 did not uncover          02/21/14
                                                              Massachusetts              leading to complainant’s retirement. Complainant alleged the manager      additional information or reveal additional evidence warranting further investigation then or now.
                                                                                         engaged in official misconduct by covering up information.                As a courtesy, we included a copy of the report of investigation for the constituent’s original
                                                                                                                                                                   case.
                                                              Senator, Florida           Request for removal of excisions from previous correspondence             As the complainant had the statutory right to appeal FOIA determinations, we forwarded his                12/13/13
                                                                                         released from the OIG FOIA office.                                        correspondence to the OIG FOIA Appeals unit for processing. As to workplace allegations,
                                                                                                                                                                   complainant’s retirement and the absence of similar complaints led to the Office of
                                                                                                                                                                   Investigations declination of additional investigative work.
                                                              Senator, South Dakota      Verbal abuse and inattention to service with possible racial motivation   We did not find a nexus to areas of OIG jurisdiction and opined that such issues are best                 12/24/13
                                                                                                                                                                   handled by Postal Service management, as management attempted to do so earlier in 2013. By
                                                                                                                                                                   management’s account, the constituent refused to talk to them about the issue.
Appendices




                                                              Referrals (3)
                                                              Requestor                  Allegation/Concern                                                        Major Findings/Resolution                                                                            Closure Date
                                                              Representative, Missouri   Unjust termination of a postal employee                                   Referred to U.S. Postal Service                                                                          02/19/14
                                                              Senator, New York          Withheld wages by a postal contractor                                     The allegations fell solely under the jurisdiction of the Department of Labor                            02/26/14
                                                              Senator, Ohio              Mail tampering by the constituent’s neighbors                             Referred to U.S. Postal Inspection Service                                                               02/20/14



                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                                                            Print                                            41
                             Appendices                           Supplemental Information
Table of Contents
                                                              Supplemental Information
                                                              Freedom of Information Act
                                                              The OIG Freedom of Information Act (FOIA) Office operates independently of, but frequently coordinates with, its counterparts at the Postal Service and the Postal
                                                              Inspection Service. The FOIA Office receives requests for records from the public, the media, and postal employees. The FOIA, according to the Department of
                                                              Justice, “generally provides that any person has a right, enforceable in court, to obtain access to federal agency records, except to the extent that such records
                                                              (or portions of them) are protected from public disclosure by one of nine exemptions.”


                                                              Activities
                                                              For the period October 1, 2013, to March 31, 2014


                                                              Requests                                               Number of Requests   Workplace Environment
                                                              Carryover from prior period                                            21   The OI Workplace Environment unit reviews workplace environment and operational
                                                              Received during period                                                266   issues that may affect workplace climate in postal facilities through the country. The OIG
Office of Audit




                                                              Total on hand during period                                           287   Hotline is the usual source for the complaints, but occasionally members of Congress,
                                                              Actions                                                Number of Requests   the Governors, and postal management will raise concerns or forward complaints
                                                              Processed during the period                                           257   appropriate for review by the unit. Complaint topics range from sexual harassment and
                                                              	    Requests denied in full                                           13   discrimination to workplace safety. Workplace Environment reviews are designed to
                                                              	    Requests granted in full                                          10   identify systemic, rather than individual, issues and foster postal management efforts
                                                              	    Requests denied in part                                          114   toward providing employees a stress- and adversity-free work environment.
                                                              	    No records                                                        50
                                                              	    Requests referred                                                 10   The unit accepts complaints from any postal employee, including OIG and Postal
                                                              	    Requests withdrawn                                                13   Inspection Service staff. Reviews may result in fact-finding reports to management or
                                                              	    Fee-related reasons                                               —    referral for specific suggested action, such as climate assessments.
Office of Investigations




                                                              	    Records not reasonably described                                  —
                                                              	    Not a proper FOIA request for some other reason                    7   Activities

                                                              	    Not an agency record                                              40   For the period October 1, 2013 - March 31, 2014
                                                              	    Duplicate request                                                 —
                                                                                                                                           Complaints Received                                                          Total
                                                              Balance                                                Number of Requests
                                                                                                                                           Carried over from previous quarter(s)                                           20
                                                              Balance at the end of the period (pending)                             30
                                                                                                                                           Complaints received from OIG Hotline, Congress, Governors, management,         358
                                                                                                                                           internal, and other
                                                              Processing Days                                           Number of Days
                                                                                                                                           Total on hand during this period                                               378
                                                              Median processing days to respond to a FOIA request                     8


                                                                                                                                           Workplace Environment Actions                                                Total
                                                                                                                                           Complaints reviewed and closed during the period                               368
                                                                                                                                           Referred to Postal Inspection Service                                            1
                                                                                                                                           Referred to Office of Audit                                                      0
                                                                                                                                           Referred to Office of Investigations                                             1
                                                                                                                                           Referred to Workplace Environment                                               43
                                                                                                                                           Referred to Hotline                                                              1
Appendices




                                                                                                                                           Referred to Summary of findings to Congress/BOG/Postal Service                 104
                                                                                                                                           Management
                                                                                                                                           Referred to FOIA                                                                 0
                                                                                                                                           Referred to AIG for Investigations                                               0
                                                                                                                                           Referred to Database for statistical analysis and possible systemic review     218




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                                    Print                   42
Table of Contents          Acronym Guide

                                                                    APPS: Automated Package Processing System                                          FEGLI: Federal Employees’ Group Life Insurance                                     OWCP: Office of Workers’ Compensation Programs

                                                                    APWU: American Postal Workers Union                                                FEHB: Federal Employees Health Benefits                                            P&DC: processing and distribution center

                           Here is a quick guide to acronyms used   C&A: certification and accreditation                                               FSS: Flats Sequencing System                                                       P&DF: processing and distribution facility
                           in this reporting period.
                                                                    CSRS: Civil Service Retirement System                                              GMU: George Mason University                                                       PAEA: Postal Accountability and Enhancement Act of
                                                                                                                                                                                                                                          2006 (also known as the Postal Act of 2006)
                                                                    CSS: customer service supervisor                                                   HCR: highway contract route
                                                                                                                                                                                                                                          PKI: Public Key Infrastructure
Office of Audit




                                                                    DBCS: Delivery Barcode Sorter                                                      LLV: long-life vehicles
                                                                                                                                                                                                                                          PRC: Postal Regulatory Commission
                                                                    DOL: U.S. Department of Labor                                                      MTE: mail transport equipment
                                                                                                                                                                                                                                          PVS: Postal Vehicle Services
                                                                    DEA: Drug Enforcement Administration                                               NALC: National Association of Letter Carriers
                                                                                                                                                                                                                                          RARC: Risk Analysis Research Center
                                                                    DWC: distribution window clerk                                                     NCSC: National Customer Support Center
                                                                                                                                                                                                                                          SBOC: Stations and Branches Optimization Consolidation
                                                                    eCBM: Electronic Conditional Based Maintenance                                     NDC: network distribution center
                                                                                                                                                                                                                                          SSA: sales and services associate
Office of Investigations




                                                                    EDDI: Electronic Data Distribution Infrastructure                                  NPV: net present value
                                                                                                                                                                                                                                          TACS: Time and Attendance Collection System
                                                                    EDI: Electronic Data Interchange                                                   OA: Office of Audit
                                                                                                                                                                                                                                          VMF: Vehicle Maintenance Facility
                                                                    EIR: Enterprise Information Repository                                             OI: Office of Investigations
Appendices




                                                                    © 2014. USPS. All Rights Reserved. The following are among the many trademarks owned by the United States Postal Service: United States Postal Service®, United States Postal Service® with Eagle Design, U.S. Postal Service®, USPS®, First-
                                                                    Class Mail®, USPS.com®, Click-N-Ship®, Automated Postal Center®, APC®, Express Mail®, Priority Mail Express®, Priority Mail®, Standard Mail®, Parcel Post®, Media Mail®, Customized MarketMail®, Intelligent Mail®, Parcel Select®, Express
                                                                    Mail International®, Priority Mail Express International®, Quick, Easy, Convenient®, United States Postal Service Office of Inspector General® with Eagle Design, Post Office™, Postal Service™, Signature Confirmation™, Certified Mail®, Delivery
                                                                    Confirmation™, Registered Mail™, ZIP Code™, Priority Mail International®, First-Class Mail International®, Premium Forwarding Service®, Forever®, gopost®, Priority Mail Flat Rate®, DMM®, PostalOne! ®, USPS Delivery Confirmation®, Approved
                                                                    by the Postmaster General®, and Postmaster General™.



                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                                                                                                                  Print                                                                   43
Table of Contents




                                                              The U.S. Postal Service has two law enforcement agencies with distinct areas of investigative
Office of Audit




                                                              responsibility to serve the needs of stakeholders, postal employees, and the American public.




                                                              Office of Inspector General                            Postal Inspection Service
Office of Investigations




                                                              •	Theft, delay, or destruction of mail                 •	Security of employees, facilities, and equipment
                                                                by employees and contractors                         •	Revenue and postage fraud
                                                              •	Workers’ compensation fraud                          •	International mail security
                                                              •	Embezzlements and financial crimes                   •	Violent crimes:
                                                              •	Contract fraud                                         - Threats and assaults of employees
                                                              •	Kickbacks                                              - Burglaries and robberies
                                                              •	Computer crimes                                      •	Mail theft by nonemployees
                                                              •	Narcotics                                            •	Dangerous mail and bombs
                                                              •	Employee misconduct                                  •	Mail fraud
                                                              •	Internal affairs and executive investigations        •	Identity theft
                                                              •	Whistleblower reprisals                              •	Narcotics in the mail
                                                                                                                     •	Child pornography and obscenity
                                                              Contact: 888-877-7644                                  Contact: 877-876-2455
                                                              www.uspsoig.gov                                        http://postalinspectors.uspis.gov
Appendices




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                        Print                                  44
Table of Contents
Office of Audit
Office of Investigations




                                                              Contact us via our Hotline and FOIA forms, follow us on social networks, or
                                                                 call our Hotline at 1-888-877-7644 to report fraud, waste or abuse.
                                                                                            Stay informed.

                                                                                       1735 North Lynn Street
                                                                                        Arlington, VA 22209
                                                                                          (703) 248-2100
Appendices




                           Semiannual Report to Congress
                           October 1, 2013 — March 31, 2014                                                                                 Print
